<html>
<title> - ANTI-SEMITISM ACROSS BORDERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                      ANTI-SEMITISM ACROSS BORDERS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

                           Serial No. 115-10

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                 or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-753 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Paul Goldenberg, national director, Secure Community Network.     7
Ms. Stacy Burdett, vice president, Government Relations, 
  Advocacy, and Community Engagement, Anti-Defamation League.....    15
Rabbi Andrew Baker, personal representative on combating anti-
  Semitism, Office of the Chairperson-in-Office, Organization for 
  Security and Co-operation in Europe............................    26
Mr. Mark Weitzman, director of government affairs, Simon 
  Wiesenthal Center..............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Paul Goldenberg: Prepared statement..........................    11
Ms. Stacy Burdett: Prepared statement............................    18
Rabbi Andrew Baker: Prepared statement...........................    30
Mr. Mark Weitzman: Prepared statement............................    39

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
Ms. Stacy Burdett:
  List of cities with no reports of hate crimes..................    72
  ADL and HRF Scorecard on Hate Crime Response in the OSCE Region    74
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Wisenthal Center's Overview of Digital Terrorism and Hate......    76
  State Department definition and examples of anti-Semitism......    78
  Statement of the Union of Orthodox Jewish Congregations of 
    America......................................................    79
  Statement of B'nai B'rith International........................    80

 
                      ANTI-SEMITISM ACROSS BORDERS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
morning and welcome, everyone. And I thank you for being here 
for this very, very timely and, I think, very important 
hearing.
    The Jewish people have survived and thrived from the times 
of biblical antiquity to the present day--quite a feat when you 
consider all of the civilizations that have come and gone: The 
Hittites, the Assyrians, the Egyptians, Persians, Greece, and 
Rome. The presence of Jews has enriched the cultures of many 
civilizations and countries, from the Americas, to Ethiopia, to 
China.
    But just as the Jewish people have endured, so too, has 
anti-Semite hatred. This hatred has ranged from prejudiced 
slurs whispered in private to the murder of more than 6 million 
Jews in the Holocaust.
    Seventy-two years after the Holocaust ended, anti-Semites 
continue to target the Jewish people for discrimination, 
destruction of property, and even death. This hearing will 
explore global threats to Jewish communities, the underlying 
ideologies, and what actions the United States and other 
countries and international organizations should take.
    Our witnesses, including Paul Goldenberg, the national 
director of the Secure Community Network, addresses ``the 
current state of affairs in Europe, specifically the increased 
levels of hate-motivated incidents impacting Jewish 
communities.'' Mr. Goldenberg also asks whether perpetrators on 
both sides of the Atlantic may be feeding each other.
    He emphasizes that it is vital that the Congress and the 
U.S. Government identify, analyze, and respond to the cross-
Atlantic links between anti-Semitism and anti-Semitic remarks. 
I convened this hearing so that we can ensure that we are 
scrutinizing the cross-Atlantic connections and the solutions.
    Our second witness, Rabbi Andy Baker, a friend for decades 
and personal representative of the OSCE co-chair-in-office on 
combating anti-Semitism and director of international Jewish 
affairs for the American Jewish Committee, testifies in his 
written remarks that, after the terrorist attacks in Paris, 
Brussels, and Copenhagen,``no longer were governments able to 
ignore the situation. They have responded.''
    He cautioned, though, that ``problems still remain. 
Governments have taken different approaches, and some only in 
stop-gap measures.'' Rabbi Baker has warned that we need to be 
clear-eyed in confronting and combating anti-Semitism, which 
manifests itself on both the right and the left.
    And I would note parenthetically, as the one who suggested 
we have an OSCE conference back in the year 2000--and, 
thankfully, Ambassador Minikes, who was our OSCE Ambassador at 
the time, made that dream, working with Andy Baker and a few 
other leaders, a reality during the Bush administration. Andy 
was the one who wordsmithed the language that became, major 
parts of it, what we call the Berlin Declaration, which was an 
action plan for the countries of the OSCE--Canada, the United 
States, and Europe, Eastern Europe, and Russia--to combat this 
pervasive violence against Jews called anti-Semitism.
    It was a very important and, I think, remarkable document. 
It is still in force, although its implementation--and that is 
one of the things that Rabbi Baker seeks to do as Special 
Representative, to talk to countries, their governments, to the 
NGOs in country to try to persuade them to be far more 
proactive than so many of them are.
    In his written testimony, our third witness, Mark Weitzman, 
director of government affairs for the Simon Wiesenthal Center, 
explored a wide range of ideologies and manifestations of anti-
Semitism. He flagged that the ``regeneration of traditional 
anti-Semitism is all the more dangerous because, unlike the 
violent extremists of both left and right in radical Islam, it 
is now found in government circles and halls of power in 
countries that we define as Western democracies.''
    Pointing to a trend in Europe and the United States, Mr. 
Weitzman notes that ``academic spaces are quickly becoming 
hotbeds of anti-Jewish bias, with students each year reporting 
greater discomfort at publicly identifying as Jewish or as 
supporters of Israel.''
    The great Natan Sharansky has taught us powerfully about 
the ``new anti-Semitism'' which targets the State of Israel. I 
will never forget when Natan Sharansky testified at two 
hearings that I chaired. This is about the 18th or 19th hearing 
on combating anti-Semitism. He talked about demonization, 
delegitimization, and the double standard--the three D's, as he 
called it--of modern-day anti-Semitism, on top of, of course, 
the virulent form that we have known for millennia of targeting 
Jews, killing Jews, and destroying Jewish cemeteries, and all 
of the rest of the hate manifestations.
    But Sharansky made an excellent point, and he made it at 
the Berlin Conference--and Rabbi Baker, I am sure, remembers it 
well--when he told all of the foreign ministers and everybody 
who was assembled about the three D's. He said, disagree with 
Israel on a policy, but as soon as you cross that line and the 
double standard and say they don't have a right to exist or 
they get disproportionate focus at the U.N. Human Rights 
Council and a number of other U.N. agencies--when you demonize 
Israel, as they do so frequently, where is China? Talk about 
human rights abuse. There is the human rights abuser of the 
world, not Israel, and yet Israel gets all the attention. And 
then, of course, this idea of a double standard, which is 
rampant.
    It is a virus, anti-Semitism, that, again, causes the U.N. 
Human Rights Council to make Israel the only country 
permanently on its debate agenda--the only country.
    In this context, I applaud our new Permanent Representative 
to the U.N., Ambassador Nikki Haley--and I have met with Nikki 
Haley on this very issue--for announcing on Monday that the 
U.S. will no longer participate in this frenzy of Israel-
bashing known as ``Agenda Item 7.'' Instead, she said, the 
United States will only participate ``to vote against the 
outrageous, one-sided, anti-Israel resolutions that so diminish 
what the Human Rights Council should be.''
    The Human Rights Council is also the body that directed the 
High Commissioner for Human Rights to compile a blacklist of 
companies working with Israelis beyond the 1949 armistice line, 
including Jerusalem's Old City, the location of Judaism's 
holiest site. This measure is self-evidently born out of the 
anti-Israeli boycott, divestment, and sanctions, or BDS, 
movement that is disturbingly present in many European 
countries and on college campuses across the United States.
    I have met with the High Commissioner for Human Rights and 
raised this issue myself last fall and said how disappointed, 
how angry so many of us are that he would misuse his position 
as High Commissioner to carry on in this way. And, of course, 
the Human Rights Council is doing it on steroids.
    Let me also say, before I introduce our witness, I want to 
also welcome Stacy Burdett from the ADL, again, another 
longtime friend and a great leader in combating anti-Semitism. 
She has also brought a particular focus to Latin America, a 
much welcomed focus.
    But for all of your wonderful work, thank you, as well for 
your leadership.
    Finally, I would also like to associate myself with Mr. 
Weitzman's statement when he put it, ``Fighting anti-Semitism 
always has been a bipartisan commitment, and in today's 
fractured political world it is more necessary than ever that 
the U.S. maintain its diplomatic and moral leadership in this 
issue.''
    And I really thank you for that admonishment, which is so 
important. This has to stay bipartisan, because we as Americans 
have to combat anti-Semitism anytime and anywhere it manifests 
its ugly face. For as long as I have been a Member of Congress, 
there has been broad bipartisan support for combating anti-
Semitism.
    Just for the record, in 1982, on my first trip, David 
Harris, now with the AJC, and a number of other important 
leaders, Mark Levin from the National Conference on Soviet 
Jewry, invited me to go to Moscow and Leningrad for 10 days to 
meet with refuseniks. And what an eye-opening experience it was 
to see when there is a state sponsor of anti-Semitism--that is, 
the Soviet Union--and the systematic persecution of Jews in 
psychiatric prisons and, of course, by making anyone who 
applied for an exit visa poor by denying them a job, not giving 
an exit visa and then making them poor by denying them any 
means to provide for their families. And then, of course, 
prison was commonplace.
    I visited Perm Camp 35 in the Ural Mountains a few years 
later, as a matter of fact, along with Frank Wolf. We went and 
videotaped every prisoner we met with. It was at the beginnings 
of glasnost and perestroika. And when we showed that to Natan 
Sharansky, who had just been released, he said, these were all 
of my friends, and they are still there. And, of course, we 
kept fighting until they got out.
    This hearing will be the first in a series that our 
subcommittee will conduct. Our next hearing, we hope to have 
the Special Envoy, when he or she is named--and it may be 
somebody sitting at this very witness table--to be the Special 
Envoy to Monitor and Combat Anti-Semitism.
    For the record, back in 2004, I am the one who offered the 
amendment to create it. It is a statutory position, and I, 
along with the other co-chairs of the Anti-Semitism Caucus, 
have done a joint letter asking that the administration name 
that person now. And earlier this week, in a meeting with Vice 
President Pence, not only did I raise this issue but gave him a 
letter asking that that person be named now, because there is 
so much to do with by that individual and for that office.
    I would like to yield now to the ranking member, Ms. Bass, 
for any opening comments she would have.
    Ms. Bass. Thank you very much, Mr. Chair. As I listen to 
your comments, one more time I will tell you that I think you 
need to do a book talking about your three-decade experience in 
fighting for human rights. And I think your opening statement 
was another example of that.
    I want to welcome the witness and the members of the 
audience. Thank you for being here.
    We are here this morning to hear from our expert witness 
about what is growing anti-Semitism across borders. What is 
most important to me is not to hear only the perspective of the 
witnesses on the reasons for increased incidents of anti-
Semitism in the world but to learn where this trend is most 
prevalent overseas and who is behind the rise in anti-Semitism.
    Equally important is to learn how these trends must be 
dealt with, assertively or otherwise. I believe that these 
trends must be dealt with assertively and that the United 
States must take a leadership role in such efforts. We can't 
look the other way, either overseas or domestically, regarding 
anti-Semitism. We must stand up against all forms of bias. We 
can't pick and choose when it is convenient to stand against 
bias and when it is not. We must call it out wherever we see 
it.
    The role of the Special Envoy to Monitor and Combat Anti-
Semitism came into being by way of the Global Anti-Semitism 
Review Act of 2004 that the chairman spoke about--because he 
authored it. I also believe that it is critical to have a 
special envoy at the State Department responsible for 
addressing anti-Semitism globally. I oppose reported attempts 
by the administration to cut funding for the Special Envoy. I 
think it is a position with the goal of monitoring and 
combating anti-Semitism worldwide, and the reestablishment of 
this position is a priority.
    I also want to say that, while today's hearing is to 
address what is going on around the world, we do need to 
acknowledge what is going on in our own country. We need to 
acknowledge the fact that there have been threats at Jewish 
community centers around the country, there has been 
desecration of Jewish cemeteries.
    The community that I represent in Los Angeles, a large part 
of it is the Jewish community, and there have been numerous 
threats to the Jewish community centers in my district. In 
fact, I am meeting with a group of constituents from one of 
those centers in the next couple of weeks when we are on our 
break.
    I yield back.
    Mr. Smith. Thank you, Ms. Bass. And I appreciate your very 
kind comments. And I reciprocate and thank you for your 
leadership for all these years too, both in the State 
legislature and now here in Washington.
    And you are right; the immediate genesis for this hearing 
was what is happening in the United States. We are the Foreign 
Affairs Committee, but the linkages, obviously, between the two 
are inescapable. So thank you for underscoring that so well.
    Mr. Suozzi.
    Mr. Suozzi. I want to thank you also, Mr. Chairman. This is 
the first time I heard you speak at length on this, as a 
freshman, and I am very impressed by all the things that you 
have done throughout your career and the things that you had to 
say today. And I am looking forward to working in a bipartisan 
fashion to combat this evil in the world.
    This is very important in my district, and people in my 
district are very concerned about this issue. We have had many 
threats at our Jewish community centers, and we read the 
reports of what is going on throughout the world.
    So I want to thank you for your leadership, and I want to 
thank the ranking member for her leadership as well.
    Mr. Smith. Thank you, Mr. Suozzi.
    Mr. Schneider.
    Mr. Schneider. Thank you.
    And I will echo and associate myself with the words 
complimenting the chairman for all of his work and commitment 
to this issue.
    In my district, this is an issue that is affecting many of 
the institutions. Anti-Semitism is affecting institutions in 
Chicago, throughout the country. It is something of grave 
concern. As a Jewish Member of Congress, this is an issue that 
is also very personal.
    And while I don't have prepared remarks, I would like to 
share a very brief story. I got a letter from my cousin when I 
first came to Congress 4 years ago reminding me that his 
grandfather, my great-uncle, my grandmother's brother, used to 
keep a chocolate bar in his drawer. And he did it as a reminder 
of what this country offered.
    My grandmother's family came from Kiev. They fled the 
pogroms in 1912. And that chocolate bar was a reminder of the 
opportunity of this great country but also a reminder to him of 
where they came from and that they needed to be prepared to 
move at any moment, because, as Jews, they were always under 
threat.
    And at that time, when I received the letter from my cousin 
Jordan, I thought, yes, but we are in a different place now. 
Four years later, we are seeing a rise of anti-Semitism around 
the globe and in this country.
    Jordan wrote me a letter recently, talking about his family 
on the other side, because the family we share has grown. They 
came here in 1912. There are over 100 in the next generation, 
in my generation and our children's generation. But on Jordan's 
other side, that family was in Gorno. They were not able to 
come into this country. They were denied access. And they were 
completely wiped out in the Holocaust.
    They understand, my family understands the impact of anti-
Semitism and what it can do. And we need to be prepared to 
address it.
    In January 2015, I went to France with Jewish Federations 
of North America to talk to the community there shortly after 
the Charlie Hebdo and Hypercacher attacks. France, as you will 
touch on in your testimony, has taken direct steps to address 
anti-Semitism in its country, and we have seen good progress. 
We need to continue to do that in this country. We need to work 
with our allies around the world and stand up wherever we can.
    So this is a very important hearing. Thank you, Mr. 
Chairman, for taking the lead in calling this hearing.
    I want to thank the witnesses for your testimony, but, more 
importantly, thank you for the work you and your institutions 
do in standing up to anti-Semitism here and around the world.
    We need to make sure that ``Never again'' is not just a 
motto but is a reality and that we address anti-Semitism, 
because it doesn't just affect Jews, it affects everybody.
    Thank you very much. And I yield back.
    Mr. Smith. Mr. Schneider, thank you very much for your very 
strong comments.
    I would like to now introduce our distinguished witnesses, 
beginning first with Mr. Paul Goldenberg, who is the national 
director of the Secure Community Network. He is also chairman 
and president of Cardinal Point Strategies and a member of the 
U.S. Department of Homeland Security's Advisory Council. He is 
the former vice chair of the U.S. Department of Homeland 
Security's Faith-Based Council and is senior adviser to the 
Department's newly established Countering Violent Extremism 
initiative.
    Mr. Goldenberg is a senior adviser to the Faith-Based 
Community Security Program at Rutgers University and, in that 
capacity, has worked closely on the ground with European Jewish 
communities and European Jewish security groups and, I would 
note parenthetically, years back, was the chief promoter and 
architect of an initiative to train the trainers, which had a 
very, very laudable impact on law enforcement and recognizing 
anti-Semitism for what it was and not being just disregarded as 
hooliganism or some other crime, looking at that motive. And he 
was very, very instrumental in that.
    I would like to then introduce our second witness, Rabbi 
Andy Baker, who is director of international Jewish affairs for 
the American Jewish Community and the personal representative 
of the Organization for Security and Cooperation in Europe's 
chair-in-office on combating anti-Semitism. He is responsible 
for maintaining and developing AJC's network of relationships 
with Jewish communities throughout the diaspora and addressing 
the accompanying international issues and concerns.
    He has been a prominent leader in addressing Holocaust-era 
issues in Europe and in international efforts to combat anti-
Semitism. Rabbi Baker has served as the president of the 
Washington Board of Rabbis, president of the Interfaith 
Conference of Washington, and commissioner on the District of 
Columbia's Human Rights Commission.
    We will then hear from Mark Weitzman, who is director of 
government affairs and the director of the Task Force Against 
Hate and Terrorism for the Wiesenthal Center. He is also the 
chief representative of the Center to the United Nations in New 
York.
    Mr. Weitzman is a member of the official U.S. delegation to 
the International Holocaust Remembrance Alliance, where he 
chairs the Committee on Anti-Semitism and Holocaust Denial. He 
also co-chairs the Working Group on International Affairs of 
the Global Forum on Anti-Semitism. Mr. Weitzman has authored 
many publications and books and is the winner of the 2007 
National Jewish Book Award for best anthology for anti-
Semitism.
    We will then hear from Ms. Stacy Burdett, who is the Anti-
Defamation League's vice president for government relations, 
advocacy, and community engagement. She heads the Government 
and National Affairs Office, which represents ADL to the 
Federal Government, foreign Embassies, and policy community on 
a full range of ADL issues.
    As lead lobbyist on international issues, Ms. Burdett is 
the face of ADL to Congress, the administration, and foreign 
diplomats. And, as I said a moment ago, I have known Stacy for 
so many years and so deeply appreciate her great leadership in 
this great and important fight.
    I would like to now yield to Mr. Goldenberg for his 
opening.

  STATEMENT OF MR. PAUL GOLDENBERG, NATIONAL DIRECTOR, SECURE 
                       COMMUNITY NETWORK

    Mr. Goldenberg. Thank you. And it is an honor and privilege 
for me to be here today. I apologize for being a bit tardy. I 
think I rang off too many bells at the security checkpoint 
outside, which is not the first time.
    So, Mr. Chairman, thank you again for allowing me to 
testify today regarding the current state of affairs in Europe, 
specifically the increased levels of hate-motivated incidents 
impacting Jewish communities. There has also been a wave, as we 
all know in this room, of similar events here in the United 
States, where perpetrators on both sides of the Atlantic 
unfortunately may be feeding into each other.
    I am both proud and honored to be here with such a 
distinguished group of colleagues today. And I applaud you and 
your subcommittee for the steadfast commitment and unwavering 
support.
    In 2004, as you know, Congressman Smith appointed me to 
work overseas through the good efforts of the OSCE, so I speak 
to you today through a different set of optics. I am a former 
law enforcement veteran, and, as they say in the business, I 
see things quite differently. We worked across 10 European 
nations, working hand-in-hand with Andy Baker, Mark, and our 
colleagues at the Anti-Defamation League for nearly 7 years.
    Over the past 2 years, I have had the privilege of working 
closely with the Faith-Based Security Program at Rutgers 
University, where we are now working abroad in places like 
Molenbeek, Brussels, and Copenhagen. And as part of this new 
initiative under the leadership of former Attorney General John 
Farmer, we have made countless trips in recent months abroad 
traveling to multiple European cities. So we speak with some 
passion on this subject.
    Through these trips, I have been able to gain a firsthand 
understanding of the current climate, hearing the concerns of 
Jewish communities under threat and assessing what we can all 
do collaboratively to assist them.
    Just 2 weeks ago, I sat with the Chief Rabbi of Belgium in 
the Great Synagogue in Brussels, an institution that survived 
several wars, still stood strong after the Holocaust--a 
beautiful, celebrated structure that once again is surrounded 
by armed paratroop soldiers with long assault rifles. However, 
they serve not as an occupying or threatening force but as 
protectors of a community.
    And similar scenes, we all know, are in Belgium, France, 
Denmark, and other Western nations--armed military troops once 
again surrounding Jewish institutions just decades after the 
Holocaust.
    Consider the United Kingdom. There were a record number of 
anti-Semitic offenses in 2016. The Community Security Trust 
recorded 1,309 anti-Semitic incidents nationwide during that 
year, a 36-percent increase from the 960 recorded by the CST in 
2015.
    Previously, record-high occurrences have been triggered by 
anti-Semitic reactions to sudden, specific geopolitical events, 
leading to temporary spikes in occurrences. In contrast--and I 
can say almost the same for here in the United States--there 
was no single, sudden event in 2016.
    In 2014, for instance, there were 1,182 incidents recorded 
up until that year. This previous highest total coincided with 
a conflict between Israel and Hamas, which saw a global, again, 
rise in anti-Semitism and incidents of a similar nature. In 
contrast, as I stated, there was no single, sudden trigger 
event in 2016. And these high numbers of incidents both here 
and abroad, I have used the term, are unprecedented.
    In Germany, according to the Coordination Forum for 
Countering Anti-Semitism, the CFCA, anti-Semitism has increased 
in parallel, as they note, ``to the general rise of far-right 
crime since the beginning of the migrant crisis.'' The number 
of criminal investigations opened following attacks on Jews, 
Jewish property, and hate speech against Jews amounted to 2,083 
cases during 2015, an increase of 201 percent from the previous 
year.
    And as I heard Mr. Schneider, Congressman Schneider, a 
glimmer of hope still exists in France. Following years of 
significant incidents and attacks, the same CFCA report notes a 
significant decline of anti-Semitic incidents in 2016, after 
2015 was characterized by a rise of anti-Semitic incidents.
    Experts that I have spoken to, and many of us have 
collaborated with, attribute the decline to a strong and swift 
response by the government in launching a campaign against 
anti-Semitism in the country. First and foremost, that means 
engaging with the nation's law enforcement forces and agencies.
    As a result, Jewish communities abroad are not only 
rethinking their approach to security, they are already 
changing their daily routines, adopting new ways of doing 
things, and deciding when and where to go--from synagogue to 
grocery store--based not on their desires, but on their fears 
and insecurity.
    I had the privilege to testify last April before the 
Commission on Security and Cooperation in Europe on 
anticipating and preventing deadly attacks on European Jewish 
communities. The concerns expressed then and the premonitions 
made regarding the migration of hatred, particularly anti-
Semitism, has unfortunately manifested itself in the form of 
bomb threats, hate crimes, and cemetery desecrations, as we 
have seen as of late right here in the United States. Evermore 
connected, these extremist groups in the United States are 
borrowing, adapting, and enhancing the tactics and strategies 
adapted and adopted in Europe.
    Just a few more statistics, unfortunately. According to a 
recently distributed report by the New York City Police 
Department, they found that hate crimes against Jewish people 
more than doubled in the city since the start of the new year 
as compared to the same time period in 2016. The report 
documents 56 hate crimes from January 1 to February 12, with 28 
incidents targeting Jews. In the same 6-week period the 
previous year, the total number of hate crimes recorded in New 
York City was only 31, with 13 targeting Jews.
    A recent ADL report on anti-Semitic acts that targeted 
journalists between August 2015 and July 2016 uncovered an 
astonishing 2.6 million tweets containing language frequently 
used in anti-Semitic speech--again, an unprecedented number.
    As part of our own independent research, with regard to 
statistics, just over the last 75 days in the United States of 
America, from January 1 to March 13, 307--and that number is 
fluid, it is changing--307 anti-Jewish incidents across 40 
States in 75 days.
    Since the beginning of the year, we have exceeded 170 bomb 
threats phoned in or emailed to 117 Jewish institutions, 
centers, schools, ADL offices, and other establishments, 
leading to massive disruptions and evacuations of thousands of 
people, to include children and infants.
    Indeed, one of the most enduring images of 2017 for the 
Jewish community may be the scenes of children being rushed 
into the freezing winter temperatures to evacuate JCCs right in 
our own backyards, and those of empty cribs abandoned in 
parking lots, as dedicated staff members, infants, and toddlers 
rolled these mechanisms out of their facilities to safe 
locations.
    This phenomenon can be summed up briefly by sharing one 
incident in Whitefish that we need to note for the record. 
Whitefish, Montana--a small, pristine, beautiful town with warm 
and welcoming people. The location hosts, in addition to a 
small community, one of the most well-known members of the 
white supremacist movement in the country.
    As Jews throughout the United States were readying their 
homes for Hanukkah celebration, the Jewish community of 
Whitefish was courageously dealing with intimidation, threats 
of violence, and harassment from outside agitators. Marches, 
armed marches, were threatened against Jews. Fake news stories 
alleging conspiracies by the Jewish community of Whitefish 
against their longtime neighbors were alleged. And here is the 
most egregious: The pictures of children of the rabbi and 
Jewish leaders were posted on neo-Nazi Web sites calling for 
the followers to troll and harass the children. Attacks that 
specifically target children are abhorrent and unthinkable and 
would have the capability to paralyze any American town 
anywhere in the United States.
    In closing, beyond death and destruction, we know that 
these hate groups and terrorists, whether neo-Nazi, white 
supremacists, or Islamic extremists, they seek to create a 
sense of fear and vulnerability. If they are successful, this 
can be more impactful than any attack on us, the Jewish people, 
the American people, forcing us to not only query the safety 
and security of the societies we live in, but causing us to 
question our own ability to protect our neighborhoods and 
families and, with this, potentially causing us to change our 
behavior, retracting from our daily lives, our way of living, 
compromising our beliefs, whether that means altering how we 
dress or, even more disconcerting, after the recent bomb 
threats, hearing that some who have come to relish and rely on 
the remarkable services offered by these Jewish community 
centers--they will be reassessing their members, grounded on 
fear.
    The American Jewish community very much remains open for 
business. We are back in our houses, we are back in our 
centers, we have been back in our schools, we are back in our 
institutions. We are training; we are working with our police 
agencies. The U.S. Department of Homeland Security and the FBI 
have done a remarkable job working with the community each and 
every day. So we are very much open for business, remain open.
    I look forward to any questions that you may have, sir.
    [The prepared statement of Mr. Goldenberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Smith. Mr. Goldenberg, thank you very much for that 
very, very powerful testimony and those insights.
    Before going to our next witness, at the request of our 
distinguished ranking member, we will go to Stacy Burdett. She 
has invited her, and, unfortunately, the gentlelady has a 
schedule conflict that she has to be at. Ileana Ros-Lehtinen, 
same thing. She probably will come back.
    But I would just note for the record that the chairman 
emeritus is the chairman of the Middle East and North Africa 
Subcommittee. She is a co-chair of the Bipartisan Taskforce for 
Combating Anti-Semitism, and recently appointed to the Council 
on the U.S. Holocaust Memorial Council by Speaker Ryan. She 
will be back shortly, but she wanted to convey to you that she 
appreciates your being here and your testimony.
    I would also like to just recognize Ira Forman, who was the 
Special Envoy to Monitor and Combat Anti-Semitism from 2013 to 
2016.
    Thank you so very much, Mr. Special Envoy, for being here, 
for your work, which was greatly appreciated by all of us. And 
know that you will be invited--we want you to come and give 
your insights perhaps at the next hearing, when we have the 
administration here, as well, with the new Special Envoy.
    I would like to now ask Ms. Burdett if you would proceed.

  STATEMENT OF MS. STACY BURDETT, VICE PRESIDENT, GOVERNMENT 
RELATIONS, ADVOCACY, AND COMMUNITY ENGAGEMENT, ANTI-DEFAMATION 
                             LEAGUE

    Ms. Burdett. Thank you very much, Mr. Chairman, and thank 
you, Madam Ranking Member, for inviting me here, and thank you 
for your leadership in convening this hearing.
    And thank you, Mr. Suozzi. We are all freshmen here. We are 
all learning new lessons. We are all taking on new commitments. 
And you don't have to chair a committee to make an impact on 
this issue. So you are honoring me with your time today.
    I would like to request that my full statement and 
attachments be made part of the record.
    Mr. Smith. Without objection, so ordered.
    Ms. Burdett. Thank you.
    And I would like to just take some time to highlight a 
couple of key lessons that I think can complement what my 
friends and colleagues are saying.
    We have learned a lot from the moment that we are in, and 
we have to take those lessons very quickly and turn them into 
lessons that animate our actions.
    Anti-Semitism is a global problem. You have heard from my 
colleague and friend Paul Goldenberg, no country is immune, not 
even a remarkable country like ours. And the fight for policies 
and institutions is one that we have to fight every day. The 
chairman knows from his work in the OSCE, vital democratic 
protections and freedoms, they are not self-executing.
    And we are in that fight right now, and our success is 
extremely consequential, not just for Jewish communities but 
for America, for its moral leadership, for societies around the 
world.
    And, Madam Ranking Member, for every community in the 
United States that feels a little more unwelcome or unsafe 
today, the fights against anti-Semitism and hate are 
inextricably connected. When we have fought anti-Semitism in 
America and around the world, everyone and their children sleep 
a little bit easier at night. So thank you for that important 
message.
    I have appended to my testimony a map of this country that 
illustrates what probably is imprinted in Paul's mind every 
night when he goes to sleep, a map of where these threats are.
    We know that conspiracy theories are taking center stage in 
everyone's political debate--ours, countries all over the 
world. And they can broadcast that hate. David Duke and the 
alt-right can go right into the palm of your hand and scare you 
right where you live; or engage in trolling and doxing, like 
what Paul described in Whitefish, Montana, where you post 
people's information publicly. And you don't even have to say 
anything, you don't have to threaten anything. You can just 
say, ``Tell them how you feel. Tell these Jewish people how you 
feel. Don't do anything illegal.'' That is extremely personal, 
close to the bone.
    And we have learned that these threats start online, but, 
boy, they move offline into the real world, where they are very 
dangerous.
    ADL is increasing our investment in this area. We have just 
last week announced the opening of a new Center on Technology 
and Society that will be based in Silicon Valley. We have 
already been engaging with industry leaders in Europe, in the 
United States, all over the world, and using multilateral fora, 
international organizations that are the purview of this 
subcommittee, like UNESCO, like the U.N.'s Alliance of 
Civilization, like the Organization for Security and 
Cooperation in Europe. Those are fora where lawmakers and 
policymakers like you are networking with each other to adopt 
best practices, codes of conduct. We are networking in 
international fora with NGOs. And both sides of this table, we 
have our international fora, where we can band together to 
fight this cyber harassment.
    My colleague also referenced a big data study that ADL 
released during the election campaign. And those 10 billion 
impressions of anti-Semitic tweets--I think we all were paying 
attention--they targeted about a dozen journalists, Jewish 
journalists, in ways that we know made those reporters stand up 
and say, I am going to give it a moment of thought before I 
cover a candidate or an individual in an honest way; it might 
not be worth it to me to be so harassed. So that gives us 
pause.
    So the government has a primary responsibility to make 
people feel safe, to model good behavior, and to spotlight the 
problem. I have included 10 recommendations. I hope they are 
all easy. I want to just highlight a couple, because I think 
you are going to get a lot of good recommendations today.
    America's human rights and democracy programs that former 
Special Envoy Ira Forman has expanded, enhanced, mobilized, 
energized, put them, as the chairman said, on steroids--those 
programs, they are part of our foreign affairs machinery, and 
they can't be effective on the cheap. Every single one of you 
is going to cast a vote about our foreign affairs budget, and I 
would like you to keep in mind that our ability to fight anti-
Semitism around the world depends on having the resources to 
engage the world successfully.
    I just want to highlight one other area, and this is in my 
recommendations as well. One of the most remarkable things we 
do as a country, when we report human rights violations in 
every country in the world, when we spotlight those problems, 
we are not only setting a moral marker, setting a tone that we 
hope other countries will follow, we do something vital, we 
lead by example. We have always done that. Our moral leadership 
deeply matters in this world and in this fight.
    And when a monster goes to a Jewish cemetery in St. Louis 
to turn over 100-and-some heavy tombstones, that is a powerful 
attack on the presence of that community. Whether it is in 
Missouri or in Pennsylvania or in central Europe, you are 
saying: Your perpetuity, your children, your presence is 
offensive to people; be afraid.
    And we want to make sure that not only are governments 
around the world reporting these incidents--please take a look 
at my second appendix. It is a scorecard of 57 countries, 
where, with the help of Rabbi Baker and Chairman Smith, we now 
have data in 57 OSCE countries.
    But I want you to remember, please, one number: 3,441. 
Three thousand four hundred forty one. That is the number of 
American police departments that don't report any hate crime. 
When a monster comes to that cemetery, nobody tells the FBI. We 
don't know what is happening there.
    Paul is correct, law enforcement does a remarkable job. We 
are a model for the world. But we have to fight for our 
standing as a country that leads by example.
    And so, in California, all over the world, in Elizabeth, 
New Jersey, in Patterson, New Jersey, in Newark, there are just 
too many people there, too much diversity to believe that there 
were zero hate crimes in 2015.
    So, for freshmen, for Mr. Suozzi, you can leave this 
chamber, and law enforcement in your State and in your 
district, they care very much what you think about the 
importance of making sure that we lead by example and that we 
bother to tell the FBI when people in our communities are 
targeted by hate.
    I can't thank you all enough for your attention and for 
your leadership.
    And I would like to make an additional request. Perhaps it 
might be helpful if I would enter into the record a list of 
cities in the United States with over 100,000 residents who 
either report zero hate crimes or don't bother to give an 
answer at all. That is a good followup item for every Member of 
this body.
    Thank you very much.
    [The prepared statement of Ms. Burdett follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                              ----------                              

    Mr. Smith. Thank you, Ms. Burdett.
    Thank you, Ms. Bass.
    I would like to now yield to Rabbi Baker.
    And, without objection, your last request will be made a 
part of the record.

  STATEMENT OF RABBI ANDREW BAKER, PERSONAL REPRESENTATIVE ON 
 COMBATING ANTI-SEMITISM, OFFICE OF THE CHAIRPERSON-IN-OFFICE, 
      ORGANIZATION FOR SECURITY AND CO-OPERATION IN EUROPE

    Rabbi Baker. Chairman Smith, thank you for this opportunity 
to testify, but thank you and your colleagues for the 
leadership you have shown, really, over a very long period of 
time. I think we all know and you cited earlier, the U.S. 
effort in the case of the OSCE, but in other areas, to get 
countries to focus on this problem, to really step up and 
address it was critical, starting with that first OSCE 
conference and all the various other things that have followed.
    It should also be noted that before the U.S. Government 
really got engaged, it was you and other Members of Congress 
that pushed an administration, often not because of opposition 
to the subject but worried about complications, difficulty 
within the OSCE, the consensus process, and other things.
    So, without the advocacy here, I think much of what we have 
been able to do would not have succeeded. And it is a lesson 
that we need to keep in front of us even as we go forward.
    I would like for the record that you accept my written 
testimony. And here I will simply try to highlight what I have 
tried to present more as a kind of progress report and, again, 
with a particular focus on the problem in Europe.
    Security, as you have already heard, has been a paramount 
issue. And the fact is, for many years, we had a real 
difficulty in getting governments to recognize the challenges, 
the very need for security that Jewish communities were 
witnessing.
    It had much to do, I think, with the advocacy of many of 
the organizations represented here and so on to get governments 
to pay attention. But, at the same time, and tragically, it was 
only after some of these terrorist attacks, deaths in Brussels, 
in Paris, in Copenhagen, that governments at least began to 
recognize the problem.
    But doing something was another issue altogether. And we 
have seen success, but we know it is only partial.
    Congressman Schneider referenced France earlier. It is true 
that, because of what we saw there, the government stepped 
forward. It literally mobilized the military. And so every 
school, every synagogue, every community building was 
protected. And incidents went down last year, and in 
significant numbers. Even, it appears, the number of Jews 
leaving France, a real problem itself, has decreased.
    But the Jewish community knows, and we have now seen, this 
was not a permanent step, that security is no longer there, the 
government can't afford to do this, and, in fact, terrorist 
threats are present throughout the country. So what will 
happen? How to keep that attention, how to keep that 
mobilization is still not certain.
    In Sweden, which has the largest Jewish community in 
Scandinavia, we have seen them begin to mobilize, recognize the 
security needs are real. We have pushed governments to come 
forward with funding. In effect, the mere practice of your 
religious freedom is challenged if people are fearful of going 
out in public, being physically identified as Jews. In some 
cases, simply attending a Jewish event has caused people to 
second-guess and think about what they are doing.
    So, in Stockholm and Malmo, there are new efforts. Paul and 
I recall particularly visiting Malmo and, at the time, seeing 
the embattled nature of that Jewish community. There is now 
security support. We didn't have that before. There are more 
funds going to support community institutions. But more is 
still needed. And the communities in both places will still 
tell us, yes, we have some help, but the governments, which 
have begun to mobilize, need to do more.
    In a place like the UK, we have probably the best example 
of good cooperation between a Jewish community and government 
authorities. The UK's Jewish Community Security Trust has been 
monitoring incidents, and has, in fact, been directly training 
police. And there is, not only in this relationship, something 
that has provided a real security net for the Jewish community, 
they are now being asked to help assist in providing security 
for other religious communities in the UK. It is a model, and 
it is one we have cited before and deserves recognizing still 
again.
    It is also work, as we know, the problem not only with 
cyber hate but of conveying information through the Internet 
and through social media and finding some very good ways of 
using that to alert a Jewish community when there are problems 
or when there are steps that are being taken.
    And, finally, the OSCE's ODIHR has been implementing, 
developing a multi-year program known as Words Into Action 
specifically to focus on problems of anti-Semitism, with 
security being one of them. With significant funds coming from 
the German Government, the first measure they will take is 
producing a guideline, a security toolkit, if you will, on what 
governments, what NGOs, what different authorities should be 
doing when it comes to Jewish community security. This should 
be presented later this spring, first in Europe, but we 
certainly hope they will come here and we will have an 
opportunity to share what their recommendations are here in the 
United States.
    Turning to a second issue, we have made efforts to convey 
the importance of having a clear and comprehensive definition 
of anti-Semitism. This goes back, as you know, over a decade. 
It may have been when the first studies were done in the 
European Union in 2003 and 2004; even the monitors conducting 
those surveys didn't have a full appreciation of anti-Semitism 
and what it was. Yes, maybe they understood hatred, prejudice, 
and discrimination toward Jews, but anti-Semitism presenting 
itself through conspiracy theories about Jews, anti-Semitism 
through the vehicle of Holocaust denial, and, as you cited in 
referencing Natan Sharansky, understanding how Israel can 
itself be a target or a form of anti-Semitism, as when it is 
declared of racist endeavor, when its very existence is 
challenged, or when analogies are drawn to the Nazi treatment 
of Jews. This is not criticism, it is anti-Semitism.
    And we have had success in getting governments, in getting 
organizations to recognize the value of a comprehensive 
definition, starting with that EUMC working definition a decade 
ago, and now looking to individual countries to employ it. Our 
own Government and the office of the Special Envoy has used a 
version of that definition. With great success last year--and 
considerable kudos to my colleague Mark Weitzman--the IHRA, the 
International Holocaust Remembrance Alliance, essentially took 
that definition and managed to secure its adoption for use by 
IHRA and its 31 member countries.
    With that in mind, the OSCE chair last year, German Foreign 
Minister, now President, Frank-Walter Steinmeier, said he 
wanted to secure the adoption by the OSCE for use in the OSCE 
of this definition. It was a considerable hurdle to get 57 
countries to agree by consensus. Coming down to the wire in 
Hamburg, as you know, we ultimately got 56 of those 57 
countries to agree. Only one, the Russian Federation, stood in 
the way for reasons I can go into later if you are interested. 
They were more excuses; they weren't legitimate reasons.
    We very much hope it will be possible, changing dynamics 
perhaps, that during this calendar year, we could get the 
Russians to come onboard and, with the assistance of the now 
Austrian OSCE chair-in-office, try to push for that adoption in 
December 2017.
    In the meantime, the UK Government has formally adopted 
this definition. We have managed to get Justice Ministers in 
Germany and Austria to say they will use it in training judges 
and prosecutors. We have even a formal statement by all of the 
EU countries within the OSCE endorsing this. So we hope more 
steps can be taken to put it into use.
    I will turn to a third area. It is one that has been with 
us, but, in fact, it is flaring up yet again, and that is the 
question of balancing principles of religious freedom with 
maybe more secular forces in society. And I speak now about the 
elemental practices for Jews and for Muslims--they go back 
really to biblical times--of ritual circumcision and of ritual 
slaughter. They really are elemental to practicing religion 
today, but they have been under attack. Animal rights activists 
and children's rights advocates, maybe with genuine, legitimate 
motives, but they would seek to ban this practice of slaughter 
and limit the ability to circumcise our youth, our infants.
    In this process, Jews now have to defend something they 
have been doing literally for centuries. It may not be in its 
initial intent an anti-Semitic campaign, but it surely is often 
in its result. By the way, it also links Jews and Muslims 
together. And so, where there have been some success, it has 
really depended on an alliance as both communities confronting 
this problem together.
    Finally--and with this, I will close--we have to recognize 
there is still great unease at a very uncertain political 
climate when we look across the European continent. We see the 
success of right-wing, nationalist, xenophobic parties and 
movements, in some cases winning at the ballot box, finding 
their way into parliaments, even threatening, as we have seen 
in a couple of countries, to ascend to serious positions, such 
as the office of President.
    In many cases, these are parties and movements that are 
virulently anti-immigrant, anti-Muslim, anti-Roma, but anti-
Semitism has also been a significant part of them. And Jews do 
not feel comfortable even if it appears that the first target 
is someone else. In fact, as we have learned here in America, 
as has already been stated, I think our ability to combat anti-
Semitism, to feel safe and secure, is part of the larger fight 
to combat racism, discrimination, and xenophobia across the 
board.
    Having said that, Europe has some special challenges today. 
There are significant numbers of Arabs and Muslims, many more 
coming in as part of refugees and migrants from north Africa 
and from the Middle East. Many of them have attitudes, come 
with, frankly, sentiments and views that are anti-Israel and 
anti-Jewish, and also in many cases anti-Western.
    The societies that have received these people, also that 
have had some difficulty in assimilating and integrating those 
who have come before them. They need to recognize this and try 
and step up and do more. The fact is Jewish communities have 
often confronted this significant increase in incidents of 
harassment or attack coming largely from parts of these 
communities. Not all governments are willing to confront this 
with a clear-eyed approach. And if they don't, they are not 
going to really be successful in figuring out strategies to 
deal with it in the short-term when it comes to security, but 
long-term when it comes to educational efforts and the like.
    So here, too, we need to keep focus on what is in front of 
us, I think, to recognize we have had success, we have 
attention. We need to keep the support and the moral focus here 
in America to really assist us in this continuing combat, this 
continuing battle that we are waging across the ocean in 
Europe.
    So thank you again for this opportunity.
    [The prepared statement of Rabbi Baker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you, Rabbi Baker, for that very extensive 
set of recommendations and the overview that you have provided 
us.
    And, without objection, your full statement--and this goes 
for all of our distinguished witnesses--and any attachments you 
would like to make a part of the record, so ordered.
    Mr. Weitzman?

STATEMENT OF MR. MARK WEITZMAN, DIRECTOR OF GOVERNMENT AFFAIRS, 
                    SIMON WIESENTHAL CENTER

    Mr. Weitzman. Thank you very much, Chairman Smith. I would 
like to begin by expressing my thanks and appreciation to you 
for your leadership in Congress and internationally, as well as 
for your personal activism on this issue, which we know has 
extended beyond just the legislative field but really to going 
out and intervening in cases directly. And your leadership is 
much appreciated.
    I also want to thank the ranking member and the members of 
the subcommittee. And as a fellow New Yorker, my appreciation 
to Mr. Suozzi for his remarks and his presence on this issue as 
well.
    Anti-Semitism today is no longer limited to verbal 
expressions of hate. It is fueled by the stream of propaganda 
that radical Islamists put out online and the financial/
political contributions to this campaign that come from some 
Muslim states and organizations. An increasing number of 
terrorists have translated words into action and assaulted and 
murdered Jews throughout Europe and targeted Jewish 
institutions in Europe and the U.S. They have been joined in 
recent years and recent months by members of the radical right, 
extremists coming from all aspects of society and fringes of 
society, who have targeted Jews as their primary target.
    Continuing almost 20 years of efforts, next week the Simon 
Wiesenthal Center will be releasing its Digital Terrorism and 
Hate Electronic Report of extremism and anti-Semitism on the 
Internet, which includes grading the social media companies. We 
see that there is a frequent correlation between the amounts of 
propaganda and extremism and hate that come out online and the 
surge in radicalization and terrorism that often follow.
    However, I would like to focus my remarks here on something 
that is somewhat different, and it is an aspect of political 
anti-Semitism, especially Holocaust distortion, that we can now 
see in growing circles of Western democracy and Western 
democratic countries.
    To focus on one country in particular as a prime example of 
this, I would like to turn my attention to what is happening in 
Poland currently, where we have high-ranking officials, such as 
the Minister of Defense, who has in the past accepted the 
possibility that the classic text of anti-Semitism, the 
``Protocols of the Elders of Zion,'' are perhaps, in fact, 
true. And he claimed that ``experience shows that there are 
such groups in Jewish circles.'' Two other ministers have 
declined to condemn the Protocols.
    A prominent extremist Catholic radio station that has been 
condemned by the Vatican for anti-Semitism and by the State 
Department as one of Europe's most blatantly anti-Semitic media 
venues continues to find favor in government circles, having 
received grants totaling millions of dollars over the past 
year, and even had a postage stamp recently issued in its 
honor.
    Some of the quotes from people, the head of the radio 
station and commentators on the station, include: ``The U.S. 
media and entertainment industry are dependent on the Jewish 
lobby. It is similar to the Stalinist terror, which was 
organized and implemented by Jewish communism.'' That speaker 
recently toured and spoke in New York, New Jersey, and 
Massachusetts in an effort to raise money and continue 
spreading the message of hate, not just locally but 
internationally.
    The director of the Polish Institute in Berlin was recently 
fired for allegedly giving too much attention to Jewish 
subjects.
    And, finally and perhaps most importantly, an amendment to 
a law that is being proposed in the Polish Parliament claims 
that whoever publicly claims, contrary to historical facts, the 
Polish nation or Polish state's responsibility or partial 
responsibility for Nazi crimes can be criminalized with a 
potential 3-year sentence. That means, in effect, that anybody 
who refers in a conversation, in writing, in research to murder 
of Jews during the Holocaust period by Poles has potentially 
committed a criminal act and can be sentenced to up to 3 years 
in prison.
    I went to the files, the archives of the U.S. Holocaust 
Memorial Museum and just picked out three witness testimonies, 
survivor testimonies of survivors. And these are in my written 
remarks. And these survivors all testified to their experience 
where they found that the local population had been more deadly 
than the Nazis.
    And for all sorts of reasons, and this is found in many 
cases throughout occupied Europe, through the Baltics, through 
other countries in Eastern and central Europe, this is not an 
uncommon experience. But those survivors, in the twilight of 
their years now can be found liable and sentenced for just 
recalling what happened to them and giving their impressions of 
that. And this is now potentially entering into law into 
Poland.
    It will also have a greatly chilling effect on future 
research as well as freedom of speech in that country, where 
young scholars may be inhibited from even studying the 
Holocaust, people may be inhibited from publishing their 
research and their findings, and it is an attempt to 
essentially legislate history for political purposes.
    The prime focus of that has been Princeton professor, Jan 
Gross, whose remarks in an interview he gave to the German 
newspaper last year have been potentially seen as falling in 
violation of one of these types of laws. Charges were 
investigated and considered being brought. The first prosecutor 
in the case declined to bring charges. The superior reopened 
the investigation in what appears to be, again, a politically 
motivated effort.
    Poland is not the only case. It was, perhaps, the most 
acute, but it is not, by far, the only case. The Ukraine has 
passed a similar law about anyone shaming the reputation of the 
fighters to Ukrainian independence, who include the partisan 
units that are responsible for murdering 100,000 Poles and tens 
of thousands of Jews.
    In Russia, a law that forbids publication of what they 
described as falsehoods about the Soviet Union's role during 
World War II, has been used to convict the journalist who 
wrote, ``The Communists Germans jointly invaded Poland sparking 
up World War II. That is, communism and Nazism closely 
collaborated.''
    As we know it is an historical fact that in September 1939, 
Poland was invaded on both sides by both those countries. Yet, 
to state that in Putin's Russia, now appears to be against the 
law.
    In Croatia, the Jewish community has felt compelled to 
boycott official Holocaust commemorations over the past 2 
years. A former Minister of Culture in Croatia embraced the 
Ustase, the Croatian collaborators, defended their actions in 
articles that he published, and was photographed in his younger 
days wearing the Ustase hat, and screened a film in the 
Jasenovac concentration camp that minimized the number of 
victims casting doubt on the authenticity of historical 
accounts of what happened in that camp.
    Recently, plaques have been put in front of the camp with 
Ustase slogans, leading to the boycott for the second year by 
the Jewish community.
    In Hungary, a proposed Holocaust museum was to be directed 
by a woman who has written articles with anti-Semitic themes in 
them. And the content was highly questionable. Statues were 
proposed to figures who collaborated with the Nazis, including 
one such figure, an historian, who, as a minister in the 
Hungarian Government and is a member of Parliament introduced 
the Hungarian version of the Nuremberg laws, stripping Jews of 
their right to protections of citizenship and opened the way to 
the eventual deportation and murder of almost 450,000 Jews.
    Writers who had collaborated with the Nazis and written 
anti-Semitic works, were inserted into the school curriculum. A 
number of other issues went on to the point, again, where the 
Jewish community felt compelled to boycott the official 
commemorations of Hungarian Holocaust remembrance.
    Fortunately, there has been some successful pushback on 
this. The IHRA, the International Holocaust Remembrance 
Alliance, has intervened both in Hungary and in the Polish 
issue. I participated as part of a four-member IHRA delegation 
that went to Poland to discuss this with the Polish Government 
in December. We are still waiting to hear positive results in 
Poland.
    But in Hungary, through the International Holocaust 
Remembrance Alliance, through the direct intervention of 
Chairman Smith, who wrote a pivotal letter to Prime Minister 
Orban about the statues, through the efforts of Special Envoy 
Forman in the State Department, the Hungarian Government, the 
Prime Minister of Hungary, announced that they would not erect 
any more statues. They would hold off on the statues. They have 
held off on continuing work on the museum, saying that they 
would only put the final exhibits in--the museum was built and 
currently exists as a shell, but they would only put the 
exhibits in with the approval of the local Jewish community, as 
well as international experts. And, in many ways, that shows 
the power of the international body and the United States that 
work on these issues to intervene positively on it.
    But this is some of the background to the American Jewish 
community's consternation to the White House statement 
regarding the January 27 on the Holocaust that omitted mention 
of Jews. Even a mistake seen in the context of this background 
can be used by people with bad intentions.
    And as one crude example, last week, the Seattle synagogue 
was vandalized with the slogan, ``The Holocaust is fake 
history'' put on it.
    So I would like to conclude by reiterating a number of the 
sentiments that we have heard before and the recommendations, 
particularly in regard to the special envoy. And I would even 
like to suggest my institution has offered a suggestion that 
that position be upgraded to Ambassador level, to raise it in 
status and show, once again, America's political and moral 
leadership on this issue, which is needed more now than ever 
before.
    I commend the bipartisan efforts on this. As you heard, we 
are firmly committed to seeing the fight against anti-Semitism 
as a bipartisan fight, and I am happy that Members of Congress 
in both Houses have joined in that very strongly.
    I would also like to mention the Anti-Semitism Awareness 
Act, which is now sitting in Congress, which is an act that 
attempts to ask the Department of Education to use the working 
definition of anti-Semitism as a tool to be able to gauge 
whether anti-Semitism has in fact, happened on college 
campuses, and it gives us internationally accepted tools to the 
hands--it puts it in the hands of those people dealing with the 
issue on U.S. college campuses.
    Just two other brief mentions: We have also appealed to the 
Attorney General for the creation of a task force to deal with 
the issue of anti-Semitism--the wave of anti-Semitic threats 
that the American Jewish community is currently facing. And 
that ties into the other recommendation that I would add, which 
is the creation of a special portfolio, or the addition of a 
portfolio that draws together on the domestic front the issue 
of anti-Semitism as a special envoy to the State Department for 
foreign affairs. There is no similar focal point in the United 
States for the issue of anti-Semitism, and we believe that it 
is time to create that point and, thus, coordinating address--
to address the issue of anti-Semitism.
    And, finally, I would like to suggest that the Internet 
service providers as well also adopt both the definition of 
anti-Semitism, and a working definition of Holocaust denial and 
distortion as a tool to use in measuring their presence of 
anti-Semitism and their actions that they can take against it 
online.
    Finally, just to conclude and repeat what I said before, 
when governments try to legislate history for political 
purposes, when the Holocaust is taken out of context, is 
whitewashed, when Holocaust distortion opens the doors for 
traditional anti-Semitic themes to reenter the governing halls 
of society, then that is a problem and a challenge and a 
threat, not only to Jews, but to American democratic values all 
over.
    So I thank the subcommittee for the community to make this 
statement and for the leadership and activism that you have 
shown in the past, and I hope to continue cooperating and 
working together in the future. Thank you.
    [The prepared statement of Mr. Weitzman follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
                              ----------                              

    Mr. Smith. Mr. Weitzman, thank you for your extraordinarily 
effective leadership and your recommendations and your analysis 
of the state of affairs as of today and looking forward.
    Let me just ask you if that report that will be released in 
about a week, is that something we might be able to include in 
our record? Because we will leave the record open if you----
    Mr. Weitzman. We usually--it usually comes out in 
electronic form. I could see if we have a version that we could 
include. We will try to do that.
    Mr. Smith. If you would, that could be helpful, I think, 
for the record, and for all of us to read and digest.
    Mr. Weitzman. Absolutely. Thank you.
    Mr. Smith. The Ambassador-at-Large, that is something that 
we are looking at, legislative text right now, so we will get 
back to you on how we are proceeding on that.
    In November 2015, I authored H. Res. 354, and it passed 
418-0 on the House floor. Many of you helped us with the text, 
with the analysis of what ought to be in there, and I deeply 
appreciate the insights you provided. And we did call, in the 
operative part of the resolution, urging the United States 
Government to work closely with the European governments and 
their law enforcement agencies to ``formally recognize, 
partner, train, and share information with Jewish community 
security groups to strengthen preparedness, prevention, 
mitigation and response related to anti-Semitic attacks and to 
support related research initiatives.'' There are many 
operative clauses, but that was the first.
    And I am wondering if, in your view, that happened. Do you 
believe it is going to happen, you know, hopefully in an 
expanded way, or, at least, consistent with this request of the 
administration, because it is an ongoing request? And Rabbi 
Baker, if you might--others, if you would like as well--maybe 
share with us what you think are best practices. We need to 
share every best practice we have, but what can we learn from 
the UK, from France, and others, particularly the United 
Kingdom, which I agree with you have done much--they have so 
many challenges, particularly in London. You and I were there 
at the House of Commons when we both spoke to a large group, of 
lawmakers from around the world, and it was very clear that the 
United Kingdom was really trying to step up to the plate on 
these horrific crimes. Are there things we might learn from 
them?
    But, again, this was passed in 2015, so there were--and Ira 
Forman probably could provide us some information on this as 
well--how well that was implemented, because it was bipartisan, 
418-0, and your thoughts going forward with the new 
administration to make sure that there are no gaps?
    Rabbi Baker. Well, we could----
    Mr. Smith. Paul, if you want to start, then we will go 
right down the line.
    Mr. Goldenberg. So I think I will address the police aspect 
of it, which is----
    Mr. Smith. Thank you.
    Mr. Goldenberg [continuing]. Where I am very engaged and 
involved abroad right now.
    We are working on the ground in Belgium with the Belgian 
police. We are actually working on the ground in Molenbeek. You 
have an area called Soblan, which is a very heavily Jewish 
area, and, of course, you have Molenbeek, which is an area that 
the majority of the population is Muslim. And we are working on 
the ground there with the police building--it is called BCOT, 
building communities of trust between these communities, this 
is through the Rutgers project, in particular, a colleague of 
yours, Chairman Smith, Congressman Smith, which is John Farmer, 
former Attorney General of New Jersey.
    So it is engaging the communities, the security groups, and 
the police. It has been a bit of a challenge, but I will tell 
you, I think there has been tremendous progress over the past 
24 months. It is really about compelling the national police 
agencies, or the local police agencies, to share information 
with the Jewish communities, really demystifying the process. 
That is extremely integral to better communications between the 
two.
    The Jewish communities need information. They need 
information that will allow them to be safer, and the law 
enforcement agencies also need to work much more 
collaboratively with those Jewish security agencies not only 
for the sharing of information, but joint training, joint 
exercises, et cetera, because it is really a quid pro quo: 
Information comes up, and information comes down. So it is 
really creating a clear pathway of communication between the 
national and local police agencies and the Jewish communities 
that are sworn to protect them.
    We have a much more mature relationship here. The American 
Jewish community, through the works of SCN, Security Community 
Network, ADL, and other organizations, it has been a very 
mature relationship. These relationships have been for decades, 
I know. And there are some really remarkable best practices 
here that, for years, have been shared with our colleagues 
abroad.
    At the end of the day, these communities have to rely on 
their local police, and that is where it starts, and that is 
where, unfortunately, it----
    Mr. Smith. Could I ask you, as to Stacy Burdett's point 
about local police here and in Europe? Is it getting down to 
that level so that the local law enforcement--I mean, we put 
that into our resolution as well, ensure law enforcement 
personnel are effectively trained to monitor, prevent, and 
respond to anti-Semitic violence, and partner with Jewish 
communities. And that second part, partner with Jewish 
communities, is so extremely important so that there is that 
dialogue, so if there is something that is happening, or there 
is a threat, there is a response that is informed by law 
enforcement.
    Mr. Goldenberg. Is that here in the United States or 
abroad?
    Mr. Smith. Here and abroad.
    Mr. Goldenberg. If I will tell you, here in the United 
States, absolutely. The relationships between State, local, and 
Federal law enforcement are absolutely extraordinary. And I 
know--I am not going to speak for the Anti-Defamation League, 
but our two organizations are in constant contact every day 
with our State, local, and Federal law enforcement agencies. 
They not only have been sharing information as best they can 
with regard to active investigations, but I will tell you 
during this situation where we see nearly 170 bomb threats 
against Jewish centers, that the U.S. Department of Homeland 
Security deployed nearly 120 professionals. Every State in the 
country has what is called a protective security advisor. These 
are very high-level experienced individuals that were literally 
deployed to work and engage with the Jewish community centers 
not just for partnership purposes, but to provide real, viable 
expertise to them. So that is how far it went.
    And we met with the FBI just recently, 2 weeks ago, with 
Director Comey. And, undoubtedly, every Jewish leader that 
walked out of there had an extremely high level of confidence 
in the Bureau, what they are doing, and how engaged they are.
    Mr. Smith. If I could just walk right down.
    Rabbi Baker. So let me outline where I think we have 
succeeded and where your legislation clearly resonates, and 
where there are still challenges, at least in Europe.
    One of the significant challenges has been to, essentially, 
get those European Jewish communities themselves to engage, to 
develop the kind of professionalism to know how to handle 
security issues, and that varies greatly community by 
community. As we mentioned, the UK and France are very good 
models. Other countries are coming to this late. But there are 
efforts, really, to get all of them up to a certain level.
    At that point, the concern is also the kind of 
relationships that can develop with local and national 
authorities; police, intelligence gathering agencies, and the 
like.
    That also varies greatly from place to place. That is one 
of the sad realities, and we have tried to leverage good 
practices in one country to encourage, to push other countries 
to follow suit.
    As you may recall, in my OSCE role, I made an official 
visit to Copenhagen, which happen to have been 5 months before 
that terrorist attack that left one security volunteer dead. 
Authorities in Denmark said to me, we have a ``relaxed 
approach'' to security. A ``relaxed approach.'' And by that, 
they meant, they were concerned, that their citizens would feel 
uncomfortable if they saw armed police in front of buildings. 
And so for that reason, they weren't providing police in front 
of the synagogue or the school with, ultimately, the tragic 
results that took place.
    There was a mindset that had to be addressed, and 
ultimately changed. And in dealing with this issue of security, 
if the governments don't recognize the genuine threat, it is 
hard to feel you are going to succeed.
    Those terrible incidents maybe have helped galvanized that 
attention. But it still has challenges in finding its way into 
the different communities and municipalities.
    We mentioned the challenges in Malmo, Sweden. When I was 
there this past September, and I asked the person responsible 
in the municipality for security, about there really not being 
any give-and-take communication with the local Jewish 
community, he said to me--and he is a veteran himself of 
police--I don't get responses from Stockholm, from the national 
government, when they know we have threats in this community.
    So part of the problem isn't just the communication between 
Jewish community professionals and government, it is even 
within governments themselves that leave groups, leave people 
vulnerable. So this has been part of these issues, clearly, 
where you can, and some of these best practice models, point to 
good cooperation, sharing of information, not only of threats, 
but of collecting data and the like. Because, often, Jewish 
communities with professional monitoring agencies will find 
that community members, who have experienced incidents, will 
report to them even if they are reluctant to report to police. 
They know they are going to be taken seriously. And a good 
relationship means that same information can then find its way 
to government authorities.
    So those are some of the examples where, again, we have had 
progress, but still challenges remain.
    Mr. Smith. Go ahead, Stacy.
    Ms. Burdett. I just want to suggest three ideas on this 
topic: You asked about local law enforcement. We are in a 
period of transition. We haven't heard an affirmation of the 
Department of Justice's commitment to train law enforcement on 
data collection, reporting, hate crime investigations, 
prosecutorial skills that they need. That is something that is 
very high on our wish list as we look at these bomb threats and 
the rise in hate crimes in the country.
    So every day is a good day to reaffirm. If you want to see 
the best hate crime training manual that I have seen, the FBI 
has one, and we should use it. It is very good. It includes 
scenarios that all kinds of NGOs have worked on.
    And speaking of training manuals, I know, Mr. Chairman, it 
can be important when a Member of Congress inquires into a 
government program. You know quite well the international law 
enforcement academies that our FBI runs on every continent, and 
the ILEA has a hate crime curriculum that they are using. It is 
a training that has been delivered. It is a propriety document, 
and it might be something that you might want to request from 
the State Department INL, to take a look at that curriculum and 
how it is being used and how is that existing training on hate 
crime, how we can make sure that it is also helping law 
enforcement officers get the skills to address anti-Semitism. 
So that is just our own training that we are already doing.
    And we also have an existing interagency initiative that 
has been, for a while, coordinated out of the White House that 
brings together law enforcement agencies to make sure there is 
a coordinated and vigorous effort to investigate hate crimes 
and reach out to communities. So those are three very concrete 
things that I think would be useful if it were requested by 
Members of Congress. Thank you.
    Mr. Weitzman. I just would like to add two very brief 
points. One is that my colleagues are continuing their training 
sessions on digital terrorism and hate with law enforcement on 
a basic local level. We just had a session in Chicago about 2 
weeks ago. But I also point out one area of concern, which 
Rabbi Baker can certainly address as well very deeply, that we 
hear periodically through some of the European countries that 
they no longer want to bear the costs of paying for security, 
and they would like to pass that on to the local Jewish 
community. I find that very troubling, and I think it is 
something that we need to reemphasize the point that security 
is something that needs to be provided to all citizens without 
their having to pay extra for the right to live and exist in 
those countries.
    Mr. Smith. Just a few final questions, then I will yield to 
my good friend from New York.
    In one of my previous hearings that I have had, as I 
indicated quite a few, about 18 or 19 on combating anti-
Semitism, and every time we learn things that just jump off the 
page as--didn't know it was that bad here or there, or that 
this particular practice was emerging as a more common and 
prevalent practice.
    One of them, in February 2013, I chaired a hearing on 
``Anti-Semitism, A Growing Threat To All Faiths,'' and we tried 
to bring in how Catholics, Muslims, and others need to speak 
out more robustly against anti-Semitism. But we did have one 
individual, Willy Silberstein, from the Swedish Committee 
Against Anti-Semitism, testify, and I had a number of press 
people who came afterwards and said, Sweden? It is that bad in 
Sweden? And he said--and you mentioned it, Rabbi Baker, in your 
comments orally about Sweden, briefly, but he said, Let me 
start by telling you about Shneur Kesselman. He is a rabbi born 
in the United States. He is working in the Swedish city of 
Malmo, which is rather infamous for its anti-Semitism in recent 
years. What differs him from other Jews of Malmo is that people 
can see that he is Jewish. He wears traditional clothes.
    For some years now, he has been systematically harassed. 
People spit on him, throw cans after him, threaten him, and 
call him things like a bloody Jew. He points out in his 
testimony that there is a large group of Muslims there. He does 
make the point that a large portion of the Muslim immigrants in 
Sweden are not anti-Semitic, but also that there are some that 
are. And that seems to be the game changer in that particular 
nation.
    And I am wondering, if they can't get it right in Sweden, 
which is known for its nonviolence and very tolerant attitudes, 
it is not a good sign, in my opinion. So I wonder if you might 
speak to that, Rabbi, what you found most recently in Sweden. 
Has it gotten any better?
    I remember at the Berlin Conference, the chief rabbi of 
Berlin and I had dinner together, and he said it is not what it 
looks like here. He said, If I travel with traditional garb, 
and I get onto a tram or a bus, I take--or feel and will--it is 
not just something he senses. He will have comments made. And 
he said, this is in Berlin in 2004. And he said, you know, so 
many Jewish individuals go out of their way to de-emphasize 
their Jewish character and--by not wearing traditional garb, as 
this particular man in Sweden did. So that was a take-away from 
me with the chief rabbi in Berlin.
    Let me also say, Rabbi, if you could maybe speak to this, 
as you might know, as you all know--you know it for certain, 
because you helped us write it, and gave insight--the 
International Religious Freedom Act bill, the Frank Wolf bill 
that I am the prime author of, it took years to get enacted, it 
was signed in late December, has a number of strong, mutually 
enforcing provisions to it. And I think it will make a 
difference. It requires far more robust training than our State 
Department officers, DCMs and departing Ambassadors are getting 
as of now. They have not gotten it.
    The dream of 1998, when the IRFA bill was passed, Frank 
Wolf's bill, was that, okay. They have left that out. It is 
about time that combating anti-Semitism and all of the other 
religious freedom issues were really included in that training, 
and it turned out to be far less than what any of us thought 
the implementation phase would include. We now have good, 
strong language that makes it much stronger. And, again, Ira 
worked on that, as you pointed out in your number six 
recommendation. So we have to make sure to monitor that and 
that it is being done well.
    But we also put in a provision, Rabbi, and you referenced 
this in your oral remarks, about the persecution of lawyers, 
politicians, or other human rights advocates seeking to defend 
rights of members of religious groups or highlight religious 
freedom violations, prohibitions on ritual animal slaughter or 
male infant circumcision, to include that in the annual IRFA 
reports. So that will be in this report. It is required by this 
legislation. It was signed into law in the middle of December. 
So we are going to make sure that that is in there.
    Because, you know, as Sharansky said in Berlin, you can't 
fight something if you don't chronicle it. So we have to get 
the chronicalling going in this aspect as well. So you might 
want to speak to Sweden and to this provision.
    Rabbi Baker. Sure. With regard to Sweden--and I did, 
actually, also see Willy Silberstein when I was there this past 
September, and as I noted before, I was in Malmo.
    Actually, for the first time, they did apprehend and 
prosecute a perpetrator of an attack on this rabbi in Malmo. I 
guess that is good news. And I think we have been able--they 
have been able to find him in an apartment closer to the 
synagogue, so at least he is not this sort of visible target 
that he had become.
    The fact is that the challenge goes much beyond just this 
single rabbi.
    Malmo has really been the entry point for refugees and 
migrants coming into Sweden. And as I mentioned earlier, many 
of them come with attitudes from their host countries, anti-
Jewish, anti-Semitic, anti-Western in various ways. In 2013, 
there were 800 foreigners that the city had to deal with.
    In 2015, they had 13,000. So the challenges are really 
dramatic, and they are not necessarily up to it. I think we 
recognize that.
    One bit of, I want to say, positive news--and this also 
concerns Malmo--are efforts to secure a rabbi that will come to 
the city with a specific focus of working on interreligious 
and, in particular, Jewish-Muslim activities. And in this case, 
the Swedish Government would fund this project. At the time I 
was there, they were trying to identify someone. I don't know 
whether it has yet been implemented, but I think that was a 
good effort to say, let's see what we can do. Because we know, 
as I have said earlier, much of this difficulty goes with 
attitudes in the Muslim community. And this would be a program 
focused, really, explicitly on that.
    I am very happy to know that in the International Religious 
Freedom Report this issue will be identified. We have been 
pushing, also, within the OSCE and hope and expect that there 
will be a conference later this year, probably in July, that 
will focus on religious freedom and ritual practice to try to 
bring together those forces that are making efforts to push 
back on these restrictions and, again, to say, this is an 
essential element of freedom of religion and religious 
practice.
    I think, as we have seen before--when we have a U.S. report 
on interreligious freedom, on human rights, on anti-Semitism, 
it gets attention. Our respective organizations may do 
something similar. We will put out our reports, but in reality, 
governments truly pay attention if the U.S. Government is 
citing this.
    So thank you so much for being able to see that this 
happens.
    Mr. Smith. Mr. Suozzi.
    Mr. Suozzi. Mr. Chairman, let me say, again, that I want to 
thank you for your leadership on these issues. And I want you 
to know this is a very important issue to me, combating anti-
Semitism, and human rights in general. And I will always try 
and serve as a partner to you in any efforts you have in this 
regard.
    I want to thank the witnesses for their fantastic work that 
they have done with their careers and throughout their lives on 
these issues. And I want to welcome them here today. To make 
you feel welcome, I want to say bruchim habaim, and welcome you 
here to Washington today and thank you for the work that you 
are doing. Again, I am a former mayor and county executive and 
very comfortable with the issues you are talking about 
regarding law enforcement, having overseen very large police 
departments as Nassau County executive, and a smaller police 
department as Glen Cove mayor and know how important local law 
enforcement, both here in America and abroad, and the training 
that they receive on these issues is so essential. So, anything 
the chairman wants to try and promote in that respect, I will 
be happy to support him in those efforts.
    It is important we say on the record that Jews have been 
persecuted for centuries, as all of you know, but it is 
important that I say it as well. And that, you know, this is a 
persecuted minority. There are over 2 billion Christians in the 
world. There are 1\1/2\ billion Muslims in the world. There are 
900 million Hindus in the world. There are 376 million 
Buddhists in the world. There are 23 million Sikhs in the 
world, and there are only 14 to 15 million Jews. And when you 
think about the number of 6 million people annihilated during 
the Holocaust, what an incredible statistic that is. And the 
persecution that the Jews have suffered for centuries is 
something we have to start worrying about again today.
    We need to look at what is happening in the world right 
now. There are other minority groups that are being 
discriminated against, and there is something that is happening 
related to the Internet, something that is happening related to 
our political dialogue and the way that people treat each other 
generally in high public places, in the way that they talk to 
each other with a lack of civility, where it has become almost 
acceptable to demean people and to treat people with less than 
their human dignity.
    And I wanted to ask each of you to just tell me what you 
think is happening in the world today that we are seeing these 
rises happen? What are the factors that are contributing to 
this uptick in hate crimes, certainly, for Jews, certainly, but 
throughout our societies throughout the world today. What is 
happening? Is it the Internet? Is it people that were 
underground before, it is easier for them to express themselves 
utilizing social media? Is it because of leadership in the 
world? Is it because people feel threatened because of their 
economic circumstances? What is it that is happening in the 
world today that we see this uptick in anti-Semitism and other 
discrimination?
    Mr. Goldenberg?
    Mr. Goldenberg. Well, one of the things--and my 
distinguished colleagues could probably really elaborate more 
so on what I am going to say, but I am not looking to simplify 
it, but I had the honor of working closely with you when you 
were county executive, I am very aware of the good works you 
did out in the county on bias crimes and hate crimes----
    Mr. Suozzi. Thank you.
    Mr. Goldenberg [continuing]. Working with the police 
department.
    And as someone that, actually, was responsible for the 
prosecution and investigation of these crimes in the State of 
New Jersey for the Attorney General's office, I am speaking, 
again, through a different set of optics. Back in the day when 
we were investigating these types of crimes, and we had 
leaflets, calling for death to the Jews or Jews to the ovens, 
which are extremely heinous in itself, those words were 
leafletted on maybe 100 cars. And those that were distributing 
the leaflets would get tired and go back to their basements and 
go back to their disheveled printers. And I am not making light 
of this, by no means.
    Today, Congressman, with a single click of a finger, you 
can reach tens of thousands, if not hundreds of thousands, some 
of which are now much more emboldened. They feed off of each 
other.
    You know, but the old cliche, some say, well, the Internet, 
First Amendment, sticks and stones will break your bones, but 
there are statistics to show that dozens and dozens and dozens 
of individuals who have been involved, or engaged, or have 
perpetrated murders tied to extremist views, have done so 
because they were inspired through the Internet. Stormfront, 
one of the most vial, vial Internet sites out there, Breivik in 
Norway, who killed dozens of children; Miller, who shot three 
wonderful human beings out in Kansas City; and our latest 
individual that just was found guilty for shooting nine 
wonderful souls down, taking out nine wonderful souls in 
Charleston, South Carolina. The common denominator between them 
is they visited the same site. They visited the same site.
    So it is the old cliche, it is the best of times and the 
worst of times, because we have this wonderful tool. But, 
again, my colleagues can elaborate much more.
    Mr. Suozzi. That is the point Tom Friedman makes in his 
most recent book, ``Thank You for Being Late,'' is that, you 
know, the Internet makes this opportunity for makers to do 
great things and for breakers, the people that want to try to 
take us down.
    Rabbi Baker. Well, you ask a real challenging question, 
because there is an uptick. And the why is really one, I think, 
we all wrestle with.
    It reminded me of something that goes back now, I think, 
almost 25 years. AJC, at the time, was doing attitude surveys 
in different European countries. We would ask how people felt 
about Jews as neighbors and so on, but about other minority 
groups too, to really try to get a more comprehensive picture 
not only of anti-Semitism, but of other prejudices. We were 
presenting one of these surveys done in Germany at a press 
conference in Berlin. There was a pretty significant degree of 
anti-Jewish feeling, but also anti other-group sentiments, I 
want to say, maybe, ranging from maybe 20 percent up to, maybe, 
80 percent in terms of the degree of negativity depending on 
the group.
    And someone asked about such surveys at the time in the 
United States, and there have been. And what was interesting 
was the range of negative attitudes. The range itself was much 
lower. Maybe beginning at 5 or 6 percent, and going up, in the 
worst case, to 20-plus percent depending on the group.
    One of the Germans in this press conference said, as a way 
of explaining the more negative responses there, maybe people 
here are just more willing to speak their mind, to tell you 
what they really feel and that, perhaps, those surveys done in 
America, people were inhibited; they didn't want to say what 
they really felt.
    And it seemed like an answer, although at the time my 
colleague said, well, you know, maybe that is true. But the 
first step, at the very least, is to make saying those things 
taboo. Even if you think it, you shouldn't feel free to say it.
    And, so, it has always struck me, this is a basic lesson. 
It goes whether it is the old way of communicating in broad 
sides, or just in public speeches, or in the new means we have 
today, but it comes back to the same thing: We need to, as a 
first step, at least, make sure these kinds of racist, 
xenophobic, anti-Semitic expressions, aren't acceptable. And we 
all have a role in doing that.
    Mr. Suozzi. That is an excellent point, Rabbi. Thank you.
    Mr. Weitzman. I agree with what both my distinguished 
colleagues have said before, and I would say that just to make 
it very graphic, when I--one of the first articles I wrote 
about extremism on the Internet was for a conference at Oxford, 
I think, in the year 2000. And I entitled it, ``The Internet is 
More Powerful Than a Sword.'' And that was, actually, the 
message at that point that was taken from the writings of the 
neo-Nazi online. They, themselves, saw it as more powerful. 
Actually, if we begin, and want a good understanding of this, 
Stormfront, which Paul mentioned, is basically credited with 
being the original neo-Nazi site online from 1995. Actually, 
the reality is already in the mid-1980s, in the old dial-up BBS 
systems, we found a neo-Nazi site from West Virginia, for 
example, was one of the first online. And it became the 
prototype. It had a library of neo-Nazi writings, it had a list 
of race traders, things of that effect on it, point systems 
where people were already targeted, ranging from leaders of 
civil rights organizations, Federal judges, Jewish leaders, et 
cetera, and it was already established by the turn of the 
millennia.
    So this that has been prevalent ever since the technology 
began. And it teaches us, it is not the technology; it is the 
human beings involved with it. So what my colleague said I 
agree wholeheartedly, I think that the sense of responsibility 
is something that is lacking.
    And I would also add that I think one of the things that we 
allow--and you made the point of political language becoming 
debased and very highly charged. And Chairman Smith has 
referred to Natan Sharansky's remarks a couple of times 
already. I think what he was pointing out and talking about was 
how the criticism to Israel became hostility to Israel. Israel 
became identified and accepted as identification in certain 
elite circles, media circles, and so on, identified with Nazi 
acts, with an apartheid state, with genocide, with 
concentration camps, and this was then extended to the totality 
of the Jewish people.
    The effects of the Holocaust were turned around, were 
inverted, where the victims became the perpetrators. So we have 
a system, or a culture, where, in certain ways, very highly 
emotionally charged language was used to create not just 
disagreement, but hate, and stereotypes were built into it. The 
opposition that Rabbi Baker mentioned to some of the 
traditional acts of Jewish religious practice, some of which 
were aimed, by the way--and I heard it firsthand from the 
parliamentarians in Norway, for example, that these acts were 
aimed originally at the Muslim community there and Jews were 
collateral damage that went along with it.
    But they reverted back to traditional stereotypes of Jews 
as blood-sucking, vampiric figures, and these were in 
mainstream newspapers. So we saw that entering the mainstream 
of society. And I think, in essence, what we are talking about 
is that anti-Semitism used to be marginalized, used to be 
thought of as extreme. What we have seen in recent years, is 
through political anti-Semitism, and now through Holocaust 
distortion and other means, it has entered the mainstream of 
society with the effects that we see today where Jews 
throughout the world, including the Western world, feel 
imperiled in ways that are really, frankly, unparalleled in 
recent memory.
    So I think the leadership question is major; I think the 
sense of responsibility in terms of political speech, in 
general, anti-Semitism in particular, is very important, but I 
think the leadership shown the actions of this subcommittee and 
yourself pave a way and a model that we hope more people will 
emulate.
    Mr. Suozzi. Thank you.
    Ms. Burdett. So the question you ask is so perplexing, 
because every public attitude survey that we see about our own 
country, you can look in Germany at a similar trend, the 
American people, the German people, people in communities are 
growing more tolerant of each other. More people in America 
today have favorable views of Jewish people than they have 
before, and that is true of other groups as well. But the 
hatred has such a microphone right now. It is hard to hear that 
tolerance.
    And I think, you know, my colleagues have touched on a 
point, the Internet is anonymous. Think about what it took to 
bring down the Klan. It is not that the people in klavern 
believed our arguments that their values were not as good as 
ours. It is because they had to take off their hoods and show 
their faces, stand behind that hatred.
    And, you know, our CEO, Jonathan Greenblatt, keeps 
reminding us that the people who used to burn crosses on front 
lawns are now burning up Twitter. And so my colleagues are 
right, it is just another platform for the same thing.
    There is anger. There is a vacuum of leadership, and we are 
all, all of us, on both sides of this table, we are in a battle 
for an evidence- and a decency-based marketplace of ideas. And 
it goes from the global level to a very personal level. If you 
shoot hoops in the congressional gym with someone from the 
other party, you are less likely to believe it the next time 
one of your colleagues tells you that that guy's group is out 
to get you or your agenda. I say ``guy,'' because we are in the 
gym in this scenario.
    Mr. Suozzi. There are women in the gym, too.
    Ms. Burdett. Oh, okay.
    Mr. Suozzi. I worked out with some Republican women today.
    Ms. Burdett. Good for you. All politics is local, as you 
know from being a county executive.
    So your statements today, our visible partnership, 
communities see that. And when we can sit here as nobodies at a 
table and bring our expertise and give you a list of our ideas, 
and know that this chairman is quite likely to take all of the 
ideas and turn them into action and then some, that is a very 
powerful example for people to see.
    Mr. Suozzi. Thank you very much.
    Ms. Burdett. We are on the way.
    Mr. Suozzi. That image you gave of the idea of taking the 
hoods off Klan members is a very good image. Which is, you 
know, transparency and exposing things, sunlight is the best 
disinfectant, and that goes with all things in government, but 
certainly on this issue, exposing the people that are behind 
these actions and talking about it publicly is so important, 
and that is why it is so important that the chairman held this 
hearing today, and that all of you came. Thank you, again.
    Mr. Goldenberg. Mark, I think you stirred this a little 
bit. One of the things we did find in working across the 10 
countries--Andy and I traveled probably even more than that, as 
well as Stacy and I--synagogues and Jewish centers in Europe 
have become lightning rods for what happens geopolitically, and 
that should not be the case. These synagogues, these precious--
they are more than infrastructure, in some cases, 100 years 
old, and in some cases it could be 10 years old.
    These are the fabric of the nations where they sit. They 
are part of their fabric. And I think that that is something 
that we cannot allow, this continuum, evening amongst the 
police ranks, to believe in some of these countries that if 
they are attacking a synagogue, it is got to do, or associated 
with what is happening geopolitically 2,000, 3,000 miles away, 
because that is not the case. What is happening geopolitically 
2,000, 3,000 miles away, is happening 2,000, 3,000 miles away.
    But there are those that will use that as an excuse. We 
have to keep reminding people, including the security services, 
the national security services, these are your houses; these 
are your institutions; these are your synagogues; these are 
your schools; and your Jewish centers, and they need the same 
protection. They belong to you. And that is something that our 
collective groups are working on right now. More than a 
reminder, but that is about training. Thank you.
    Mr. Smith. Thank you. I would just add before yielding to 
Mr. Sherman, that that was the exact point that Natan Sharansky 
was making with his three Ds: Demonization of Israel, 
delegitimization, and double standard. And nowhere is that more 
rampant than at the United Nations, particularly the Human 
Rights Council, which is why, as I said in my opening, our new 
Ambassador to the U.N. has really drawn a line, has a zero-
tolerance attitude toward that pernicious hypocrisy, which is 
rampant.
    I have gone to the Human Rights Council myself several 
times, and before that, when it was called the Human Rights 
Commission, and was appalled to see countries whom I have great 
respect for Western democracies, who all of us have great 
respect for. They have matured, to use the word that was used 
earlier, democratic traditions, just joining in the parade and 
bashing Israel unjustly. Then that reverberates back to the 
attack on the synagogue, because it riles people up, and now, 
as was pointed out, with a click of a button, people get this 
misinformation, this hate, and then they act on it.
    So, thank you for all of those comments.
    Mr. Sherman.
    Mr. Sherman. Mr. Chairman, thank you for letting me 
participate in this hearing, although as a member of the full 
committee, I am not a member of this subcommittee. And I want 
to commend you for being the author of the Global Anti-Semitism 
Review Act of 2004 that established the Special Envoy to 
Monitor and Combat Anti-Semitism----
    Mr. Smith. If the gentleman would yield? I was the House 
sponsor, Mr. Voinovich was the Senate sponsor. But when his 
bill came over, which called for a 1-year review, I offered the 
amendment to make it a permanent office, and then also, to 
establish the special envoy that Ira so thankfully led for 
several years.
    Mr. Sherman. Yes.
    Mr. Smith. Just so it is clear.
    Mr. Sherman. And I also have a personal connection to that 
office, since my wife was the first Deputy Special Envoy. And I 
take family pride in her work on the report on global anti-
Semitism issued by the State Department in March of 2008.
    And my first question for our panel is: We did write that 
report. It is almost 10 years ago. I am not saying we can write 
one every year, but should we be writing one every decade? Do 
we need another report on contemporary global anti-Semitism?
    Yes, Ms. Burdett.
    Ms. Burdett. It is always a good idea to highlight issues 
and do special reports. If you look at the annual country 
reports on human rights and international religious freedom, 
you will see that Ira Forman and the team that is still working 
every day in the State Department do not get much sleep before 
those reports are due.
    And what you have done to require these good public 
servants to ask every single Embassy in the world to report on 
anti-Semitism, when you pull that together, it is a terrific 
snapshot. Your legislation was game-changing, and we have eyes 
on the problem in places we never did.
    Every 10 years it would be very, very wise to do a similar 
kind of report. And I know Mrs. Sherman's expertise was 
absolutely essential to that successful report, and you are 
wise to be very proud of her.
    Mr. Sherman. Thank you.
    One thing that that report does is it defines anti-
Semitism, basing its definition, in large part, on the European 
Monitoring Centre for Racism and Xenophobia's working 
definition of anti-Semitism. And defining anti-Semitism is 
important, but especially in dealing with what I would have to 
describe as far left wing, or misguided left-wing anti-
Semitism. On the extreme right you see references to Nazis. It 
is pretty obvious that it is anti-Semitic.
    But you also see attacks on the Jewish people where the 
attacker defends it, says, oh, I am not anti-Semitic, just 
anti-Zionist. And there needs to be a definition that 
distinguishes between legitimate criticism of a Government of 
Israel, something most members of this panel have engaged in 
from time to time; and a holding Israel up to a standard that 
no other country is held to, or claiming that of all the 
countries in the world, that this is the one country that 
should be abolished.
    What I wonder, though, is that the U.S. Department of 
Education doesn't have a definition of anti-Semitism, has not 
yet adopted the State Department definition. Does it undermine 
us in talking to other countries about anti-Semitism in their 
country that we are defining anti-Semitism by a standard that 
we don't apply here domestically?
    Rabbi?
    Rabbi Baker. I think it is a quite pertinent question, and 
I would turn it around and say our ability to be a strong 
advocate in pressing foreign governments, as we are, to employ 
the working definition, whether it is in police training, 
whether it is in training judges and prosecutors, whether it is 
in monitoring anti-Semitism, would certainly be enhanced if we 
can cite our own example in the United States of putting it to 
use.
    We all would hold the view, I know my organization does, 
when this issue first came up in the last Congress--that this 
working definition is a very useful educational tool. If it is 
a useful educational tool for the justice ministry of Austria, 
I would say it is a useful educational tool for the Department 
of Education here, which is concerned about monitoring and 
addressing problems of anti-Semitism on college campuses.
    And if I could also speak to your first question. A U.S. 
global report about anti-Semitism, even if it has the same 
information--and, by the way, it is increasingly having much 
more, I think. We know what is gathered. But even if it has the 
same information as our own Jewish organizations might report, 
has an impact that is unparalleled in getting governments' 
attention. So having that report really allows us and everyone 
else to go in and to push these governments, who are now taking 
notice. And, finally, it has also educated, let's be candid, 
our own American diplomats. As Embassies have a responsibility 
to monitor what is going on, they are becoming more sensitive 
to what this is about. And, again, in these places, that 
definition is a very helpful tool.
    Mr. Sherman. It has been my experience in Congress that one 
of the best ways to affect what people do is to ask them the 
right question. And by asking all of our Embassies on a 
continuing basis to ask their host governments what are they 
doing about the anti-Semitism, you drive policy in the right 
direction.
    Mr. Weitzman?
    Mr. Weitzman. I just would like to add as well, as you 
know, the 31-member nations of the International Holocaust 
Remembrance Alliance officially adopted a variation of the 
working definition of anti-Semitism. And in the negotiations 
and conversations with the countries leading up to that, its 
adoption, and my colleague, Dr. Robert Williams, from the U.S. 
Holocaust Memorial Museum was instrumental in assisting in this 
process as well, we found very often the question raised of 
what is the United States' position on this? We were able to 
refer to the State Department Web site and the documents on the 
Web site, but that, obviously, only dealt with external and 
multilateral relationships. It didn't deal with the domestic 
case at all.
    So having this definition through the Anti-Semitism 
Awareness Act that is now being held up in Congress, we think 
would be very powerful and very strong and send a message not 
only to domestic constituents in the United States in terms of 
the people on campus, even clarifying it for the 
administrators. It is a tool for the administrators and the 
people dealing with this issue on campus, as well as for the 
protection of students, but it also sends a message externally 
as well to other countries that we are basically putting into 
practice what we are preaching, that our moral voice and 
political leadership is strong on this issue, and we feel it 
applies as well to the United States.
    Mr. Sherman. And I think it undercuts our foreign policy 
across the board when people can point to an example where we 
have a standard to hold other countries to, and we refuse to 
impose that standard on ourselves.
    The Anti-Semitism Awareness Act, I strongly support it. 
But, frankly, it shouldn't take that. The Department of 
Education has a responsibility to enforce title 6. I have 
worked with that Department over the last 10 years, and we got 
a clear statement that title 6 applies to anti-Semitism, 
although the statute says national origin and race, that that 
clearly, applies to the Jewish people as well, and to bigotry 
against Muslims as well.
    If the Department of Education has determined that it has a 
responsibility to deal with anti-Semitism on campuses, it has a 
responsibility to have a definition of anti-Semitism. And one 
would wonder why they wouldn't adopt the same definition that 
has been adopted by so many organizations with a tweak here, 
with a tweak there, and, especially, why they wouldn't adopt 
the same definition of anti-Semitism that the State Department 
uses for our foreign policy.
    I want to shift to Hungary. I would like to know more about 
this--and I am may mispronounce it--Vitezi Rend. It is my 
understanding that there are two rival organizations using the 
same name. Is there any doubt that this organization is an 
anti-Semitic organization?
    I will ask this to Rabbi Baker, and then see if everyone 
else has a comment.
    Rabbi Baker. You know, this is an organization 
reconstituted from a prewar organization that was, certainly, 
anti-Semitic, Fascist, part of the supporters, followers of 
Admiral Horthy, and----
    Mr. Sherman. And a pro-Nazi probe organization during World 
War II.
    Rabbi Baker. Exactly that. Exactly that.
    So I don't know that it has much influence today in 
Hungary, but the reality is this is its origin, and it was 
around this sentiment, these ideological views, clearly, anti-
Semitic, that it was re-formed.
    Mr. Sherman. I mean, if somebody formed an organization 
called the Nazi Party of California, they may not publish a 
manifesto that is anti-Semitic, they don't need to. They name 
themselves the Nazi Party of California, and they have 
associated themselves with the Nazi Party of Germany and the 
role it played in world history.
    So we don't have to wait for today's Vitezi Rend to publish 
an anti-Semitic manifesto. They have named themselves after or 
claim to be a continuation of an organization that was a pro-
Nazi organization in Hungary in the 1930s and 1940s.
    Rabbi Baker. I think they knew what they were doing when 
they chose their name.
    Mr. Sherman. Yeah.
    Now, I am going to get down in the weeds on this. I am told 
that members of this organization add a ``V'' as an additional 
middle initial to show their support for the organization. Are 
you aware of that practice?
    Rabbi Baker. I am not.
    Mr. Sherman. Okay.
    Rabbi Baker. But maybe the others----
    Mr. Sherman. Gotcha.
    I want to thank you for your work, thank the chairman for 
holding these hearings, and yield back.
    Mr. Smith. Thank you.
    Just a few followup questions. And thank you for your time 
and, again, for elaborating so well on your responses to the 
questions.
    Ms. Burdett, you made a very important, I think, 
observation about Latin America, which you might want to 
elaborate on. You point out that in Latin America, over the 
last few years, there has been a region-wide increase of anti-
Semitic expressions and attacks directed at Jewish individuals 
and institutions, primarily via the Internet and social media.
    You point out that Venezuela continues to be a country 
where state-endorsed anti-Semitism is systematic and affects 
government policies every day for life for Jews.
    In Argentina, where the Jewish community has been the 
target of the infamous anti-Jewish terrorist attacks--and I did 
visit that community center myself and was just struck by the 
ongoing broken-heartedness by those who run that center and the 
fact that the Iranian perpetrator of those crimes--the alleged, 
but I think the evidence is very clear--continues to be not 
held to account.
    And then you point out the smaller countries, like Costa 
Rica and Uruguay, where anti-Semitism was practically 
negligible are now facing new challenges. And you give an 
example in Uruguay where a Jewish businessman was stabbed to 
death by a man who said that he killed a Jew following Allah's 
order.
    You point out that your Cyber Safety Action Guide has now 
been translated into Spanish for dissemination there.
    But if you could speak to some of this and maybe on Iran's 
influence.
    Not to get into, relitigate at this hearing the Iranian 
nuclear deal, which I think was egregiously flawed--and you 
don't have to comment on any of that, but I think it is a 
matter of when and not if that Iran gets nuclear weapons 
pursuant to those huge gaps in that agreement.
    But, that said, they are getting a boatload of money. They 
have already gotten billions of dollars; they will get more. 
And that helps Hezbollah, that helps a whole lot of people. But 
we know that Iran is the worst, largest state sponsor of 
terrorism, and they certainly are anti-Semitic to the core.
    And their influence in Latin America--I was in Bolivia a 
few years ago trying to get a Jewish businessman out of prison, 
Jacob Ostreicher, and had three hearings on his case alone, 
went down there. Our Embassy wasn't doing squat at first; they 
did get further involved. I went to the Palmasola Prison where 
he was. But the anti-Semitic view of Evo Morales and the others 
is palpable. And I add to that, their affection for Iran is 
equally disturbing.
    So Iran's influence in Latin America--Venezuela, we know 
they are close. And Argentina, again, has this ongoing, 
festering sore. So if you could speak to it.
    Ms. Burdett. Well, I want to first say that the fact that 
this body has refused to let go of the questions around this 
investigation--I know there is a resolution circulating in the 
House, and I know your colleague from Florida, Ms. Ros-
Lehtinen, who was here earlier, has been very active and 
engaged in this issue and looking at the Iranian connection.
    Our organizations, too, thought that the JCPOA with Iran 
wasn't strong enough, wasn't ironclad enough.
    And I think a number of the incidents that we are dealing 
with in the community are a result of this infectious 
influence. And we know that Iran practically has anti-Semitism 
and the export of anti-Semitism as a policy. And so, when the 
Supreme Leader calls Israel a cancerous tumor or when their 
Ministry of Culture endorses a Holocaust cartoon contest, that 
crosses every border.
    And we support your efforts to shed more light on that 
investigation and to infuse that investigation with our 
assistance to expose that connection. So I think, from a 
governmental side, you are doing your part, and, as advocates, 
we are spotlighting the permeation across borders of the hate 
that makes those incidents possible.
    Mr. Smith. If I could, to Rabbi Baker, in your written 
testimony--and I appreciate your leadership on this--you point 
out that the chair-in-office, Steinmeier, had tried to get the 
definition of anti-Semitism adopted. Only one country, Russia, 
blocked it.
    And just for the record, I have it here, without objection, 
I will put into the record that definition--it is very short--
but also the State Department's elaboration on it, which I 
think gives it additional understanding.
    Will a new attempt be made within the OSCE to get that 
definition adopted across all countries, including Russia? And 
if you could elaborate on that, I would appreciate it.
    Rabbi Baker. I really hope so.
    There is no question that the kind of leadership that the 
German Foreign Minister showed was unique. And the current 
chair, I believe, is open, if we are able to show that there 
could be a consensus, to bring it up at the ministerial this 
December in Vienna.
    I think the support from Members here, Chairman Smith and 
those who are part of the Commission on Security and 
Cooperation in Europe, will also be important for this.
    We need to find ways to bring Russia around on this issue. 
As I have noted in the past and in conversations with you, when 
I met with them, they explained to me they had two problems 
with that adoption of the definition. One concerned the views, 
they said, of their own Jewish experts, who they claimed 
opposed it, which really was not true. Another was the fact 
that it referenced the IHRA definition, and they said they were 
not members of IHRA. I asked them, ``So are those the only two 
problems?'' And they replied, ``Well, for now.''
    So we know that it is not so much addressing them as 
legitimate reasons, but finding the ability to be able to say 
there are, not just for now but permanently, no objections. 
Maybe we can tweak the actual language to provide something 
that would be suitable. But if we can--and we will try--to 
secure Russian support for this or at least non-opposition, 
then I very much hope we can come back and perhaps succeed in 
December.
    Mr. Smith. One final question for me, and then I will yield 
to my colleague if he has any additional ones.
    Obviously, Security Council Resolution 2334 was a disaster, 
in my opinion. It also had embedded in it language that I think 
is very injurious or could give amplification to the BDS 
movement.
    And, perhaps, Mr. Weitzman, you might want to speak to 
that.
    I have met with Prince Zeid, the High Commissioner for 
Human Rights. And I am beyond troubled, angered, as I believe 
and hope--I know you are--that compiling lists of companies 
that the U.N. High Commissioner has taken it upon himself to do 
is a very, very dangerous precedent, somehow suggesting the 
illegitimacy of Israel and East Jerusalem being one and the 
same.
    Any final determination between the Palestinians and 
Israelis, as we all have said a thousand times, needs to be 
negotiated between the two entities. To have this, 
increasingly, imposition of an outcome dictated by the United 
Nations and its bureaucracy is troubling, but when there is 
also an economic threat posed by BDS, that raises it even 
further. And that will have more impact, in my opinion, in 
Europe than it will here, although it will impact us here as 
well, as those companies are listed that do business in areas 
that are in contention with United Nations.
    And maybe if you could just elaborate too on that there are 
right-wing and there are left-wing strong manifestations of 
anti-Semitism. We see it. I guess what came out, Rabbi Baker, 
to me, in those very early meetings in Vienna and then Berlin 
and then followup meetings was hatred from the left and the 
right. I remember when we were pushing Holocaust remembrance in 
France, it was the teachers union and the leftists who were 
most adamantly opposed to any kind of teaching of students of 
the Holocaust. So the left and the right has shame on its face, 
in my opinion, the extreme left and the extreme right.
    But BDS is also something that the left is pushing. Maybe 
you might want to speak to that as well.
    Mr. Weitzman. Thank you.
    In regards to the United Nations, I think one of the things 
that we have seen is really the vigorous pushback by Ambassador 
Haley in leading the U.S. delegation to make it very clear that 
we will not tolerate crossing a certain line of what is really 
acceptable political discourse and what is not.
    And we were very encouraged by the reaction of the 
Secretary-General in not only rejecting the flawed report that 
came out that linked Israel to apartheid practices but actually 
taking it down from the U.N. Web site, which already actually 
caused at least one diplomat to resign in protest over it. But 
it was really unprecedented, and we are very cheered that the 
Secretary-General took a strong step on that. And we hope that 
that is showing a little bit of a shift back to a more rational 
and decent approach by the U.N.
    I think, in terms of BDS, one of the things that we have 
seen is that, again, a number of States in the United States, 
as well as a number of cities, have passed laws against BDS 
recently, over the past year or so, which are something that I 
think will strengthen the backbone, even though it wasn't 
necessarily, I think, a lot of cases that this was not 
necessarily a practical step as much as an expression of 
political will and an expression of common belief that BDS is 
not only against Israel and not only anti-Semitic but is 
fundamentally un-American. It challenges freedom of speech, 
freedom of opinion, and, as such, I think most Americans would 
reject it instinctively.
    What happens in Europe, again, I think the United States 
can play a very strong role in positioning itself as a leader 
against BDS and in making sure that, given the prominence of 
the U.S. industries, that BDS fails, as it has failed in so 
many other places.
    I will say, in terms of right-wing and left-wing extremism, 
one of the points that I would like to just make briefly is 
that there has been a sea change in right-wing extremism in the 
United States over the past generation or so.
    People had referred to the Klan, and if you look back at 
Klan history and documents, they originally came about, and 
even through the 1960s and the civil rights period, they 
claimed fealty to a vision, a flawed and totally historically 
inaccurate, but idealized vision, of the United States as an 
antebellum Southern vision of a place where slavery and 
religious persecution were embedded in the Constitution and, 
thus, were American ideals.
    The generation that we have starting in the later part of 
the 20th century is a generation of extremists who see 
themselves at war with the United States. They consider the 
U.S. Government Zionist-occupied government territory. And that 
is one of the reasons why they are so ready to go into violent 
acts, because, to them, a state of war already exists with the 
Jews who control the U.S. Government and people down to postal 
workers who have been murdered because they wore a government 
uniform.
    That has then translated it into the rhetoric that we see 
sometimes on the extremes of the alt-right and so on, who 
consider themselves at war with established political 
institutions and political norms in the U.S. And I think that 
is one of the things that we have to recognize, the shift 
between the traditional extremism and the new status that we 
have now.
    And, of course, again, the left-wing extremism is very 
often filtered through traditional--going back to Communist 
opposition to Israel, to opposition to Jews as a distinct 
religion, both of which are fundamentally opposed by communism, 
and even the erasure of Jews from history, as the infamous 
plaque at Babi Yar under Communists basically talked about the 
victims of fascism in a generic sense, at Auschwitz as well, 
taking away and erasing the specificity of the Jewish 
experience in that period.
    Rabbi Baker. Just to be very brief, I think one of the 
phenomena of anti-Semitism is that it can link haters from all 
across the spectrum who literally have nothing else in common. 
It almost defies any rational understanding.
    We have come to see and expect it as part of a right-wing, 
xenophobic ideology. It has traditionally been there in Europe, 
and in almost all of these nationalist parties anti-Semitism is 
a piece of it.
    At the same time--and, again, I reference having been 
relatively recently in Sweden--you have now a growth, it was 
pointed out to us, of these--in many cases, they are minority 
groups, hip-hop and rap artists engaged in concerts to combat 
racism that use overtly anti-Semitic language in their lyrics. 
So how do you square this?
    The fact is it is a phenomenon we are seeing not only, as 
Mark has indicated, from the historical notions of what 
communism or socialist movements may have done, but even in 
what would almost be a kind of ``post-movement'' Europe today, 
where, still, figures on the left--they may be literary 
figures, musical figures, or others--have folded in this--
again, it may start as anti-Zionism, but it often comes full-
blown as an anti-Semitism with all of those negative 
stereotypes of Jews. It is there.
    Mr. Smith. That concludes the hearing.
    I want to thank you again for your extraordinary 
leadership, each of you, and for giving us the benefit as a 
subcommittee and, by extension, the Congress--because we will 
share this widely with the leadership, especially your 
testimonies today. And as the record is obviously produced, we 
will get that out to key policymakers as well. Because, again, 
you have provided a treasure trove of insight and expectation 
as well as the experience. And past is prologue; we need to 
learn from the past and also face these new challenges as they 
emerge.
    So thank you so very, very much.
    The hearing is adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         
                                   [all]
</pre></body></html>
